<html>
<title> - NATIVE AMERICAN METHAMPHETAMINE ENFORCEMENT AND TREATMENT ACT OF 2007, THE ANIMAL FIGHTING PROHIBITION ENFORCEMENT ACT OF 2007, AND THE PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




NATIVE AMERICAN METHAMPHETAMINE ENFORCEMENT AND TREATMENT ACT OF 2007, 
   THE ANIMAL FIGHTING PROHIBITION ENFORCEMENT ACT OF 2007, AND THE 
 PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT 
                                OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                    H.R. 545, H.R. 137 and H.R. 740

                               __________

                            FEBRUARY 6, 2007

                               __________

                            Serial No. 110-5

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2007
33-102 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

              Perry Apelbaum, Staff Director-Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
[Vacant]

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel



                            C O N T E N T S

                              ----------                              

                            FEBRUARY 6, 2007

                              TEXT OF BILL

                                                                   Page
H.R. 545, the ``Native American Methamphetamine Enforcement and 
  Treatment Act of 2007''........................................     2
H.R. 137, the ``Animal Fighting Prohibition Enforcement Act of 
  2007''.........................................................     6
H.R. 740, the ``Preventing Harassment through Outbound Number 
  Enforcement (PHONE) Act of 2007''..............................    11

                           OPENING STATEMENT

The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    17

                               WITNESSES

The Honorable Tim Murphy, a Representative in Congress from the 
  State of Pennsylvania
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
The Honorable Tom Udall, a Representative in Congress from the 
  State of New Mexico
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Mr. Barry Sabin, Deputy Assistant Attorney General, United States 
  Department of Justice
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Mr. Ben Shelly, Vice President, Navajo Nation, Window Rock, AZ
  Oral Testimony.................................................    40
  Prepared Statement.............................................    41
Mr. Wayne Pacelle, President and CEO, Humane Society of the 
  United States, Washington, DC
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47
Mr. Jerry Leber, President, United Gamefowl Breeders Association, 
  Albany, OH
  Oral Testimony.................................................    55
  Prepared Statement.............................................    58

               Material Submitted for the Hearing Record

Prepared Statement of the Honorable J. Randy Forbes, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................   105
Prepared Statement of Phil Kiko, Esquire, Senior Adviser, Office 
  of the Honorable F. James Sensenbrenner, Jr....................   107

 
NATIVE AMERICAN METHAMPHETAMINE ENFORCEMENT AND TREATMENT ACT OF 2007, 
   THE ANIMAL FIGHTING PROHIBITION ENFORCEMENT ACT OF 2007, AND THE 
 PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT 
                                OF 2007

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2007

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Bobby 
Scott (Chairman of the Subcommittee) presiding.
    Mr. Scott. The Committee will come to order. Today's 
hearing will now come to order.
    I am pleased to welcome you to this first hearing of the 
Subcommittee on Crime, Terrorism, and Homeland Security in the 
110th Congress.
    I am also pleased to have been elected by my colleagues to 
Chair the Subcommittee during this Congress. And I want to say 
to Ranking Member Forbes and other Members who are on both 
sides of the aisle that I look forward to working with each and 
every one of you in conducting the important work of this 
Subcommittee.
    Today we will be considering H.R. 740, the ``Preventing 
Harassment through Outbound Number Enforcement (PHONE) Act of 
2007;'' H.R. 545, the ``Native American Methamphetamine 
Enforcement and Treatment Act of 2007;'' and H.R. 137, the 
``Animal Fighting Prohibition Enforcement Act of 2007.''
    [The bill, H.R. 545, the ``Native American Methamphetamine 
Enforcement and Treatment Act of 2007'' follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The bill, H.R. 137, the ``Animal Fighting Prohibition 
Enforcement Act of 2007'' follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The bill, H.R. 740, the ``Preventing Harassment through 
Outbound Number Enforcement (PHONE) Act of 2007'' follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. All three bills have strong bipartisan support. 
All three bills will be marked up in this Subcommittee today 
immediately following the hearing.
    We considered an earlier version of the PHONE Act in the 
109th Congress and will be hearing from the author of that 
bill, the gentleman from Pennsylvania, Mr. Murphy, in just a 
moment. He is also a co-sponsor of this year's bill.
    H.R. 740 is aimed at the practice called ``spoofing.'' 
Spoofing occurs when a caller uses a fake caller I.D. to hide 
the caller's identity in order to commit fraud or another 
abusive act.
    However, not all use of fake caller I.D. information is 
considered spoofing. When you receive a call from the United 
States House of Representatives, on an outside line, the number 
that appears on the outside line will have a different number 
than the one you are calling from. You will have basically a 
fake number. This kind of non-malicious fake I.D. use is used 
by some businesses as well, and it is exempted from the bill.
    Spoofing also occurs when a caller knowingly uses a caller 
I.D. of another person without permission. One of our witnesses 
at the hearing in our predecessor bill last Congress was Phil 
Kiko, the Judiciary Committee's chief counsel at the time, who 
had been the victim of such caller I.D. spoofing.
    While he had not suffered any theft of any money or 
tangible property at the time and was not directly harassed by 
the person who used his caller I.D., Phil and his family 
members were understandably irritated by numerous calls from 
people who were calling him back as a result of his caller I.D. 
being left on their caller I.D. systems.
    The bill that we were considering last Congress did not 
cover that situation, and that bill also made even non-abusive 
fake I.D. use illegal. That bill also did not make the 
distinction in penalties for spoofing that does not involve 
fraud or commercial gain.
    Further, comments from the Department of Justice were not 
available when last year's bill was being developed. We have 
since had a chance to consider DOJ's input and have constructed 
a bill that makes fraudulent commercial use of caller I.D. 
information a felony, makes abusive use of another person's 
caller I.D. information without fraud or commercial motives a 
misdemeanor, and exempts the use of non-abusive fake I.D. 
information.
    H.R. 545, the ``Native American Methamphetamine Enforcement 
and Treatment Act of 2007'' corrects an oversight in the Combat 
Methamphetamine Epidemic Act of 2005, which we passed in the 
last counsel as part of the USA PATRIOT Act.
    Included in the combat meth act were provisions that 
authorized funding for three important grant programs within 
the Department of Justice. Although Native American tribes were 
included as an eligible grant recipient under one of the 
programs, they were unintentionally left out of two other 
programs, and this bill will correct that oversight.
    Finally, we will be considering H.R. 137, the ``Animal 
Fighting Prohibition Enforcement Act of 2007.'' H.R. 137 
addresses the growing program of staged animal fighting in this 
country. It increases the penalties under current Federal law 
for transporting animals in interstate commerce for the purpose 
of fighting and for the interstate and foreign commence in 
knives and gaffs designed to be used in cock fighting.
    Specifically, H.R. 137 makes violations of the law a felony 
punishable by up to 3 years in prison. Currently, these 
offenses are limited to misdemeanor treatment with the 
possibility of a fine and up to 1 year of imprisonment. Most 
States have made all staged animal fighting illegal.
    Just two States allow cock fighting. Virginia, 
unfortunately, is one of them, although it prohibits wagering 
on such fights. However, the Virginia Senate just recently 
passed a bill in the current legislative session that would 
also make cock fighting illegal.
    H.R. 137 currently has close to 300 co-sponsors.
    I look forward to the testimony of our witnesses on these 
important bills and to considering the legislation and markup 
following the hearing.
    It is now my pleasure to recognize the Ranking Member of 
the Subcommittee, my friend and neighbor, the Honorable Randy 
Forbes, who represents Virginia's 4th Congressional District.
    Representative Forbes?
    Mr. Forbes. Thank you, Mr. Chairman. And let me, first of 
all, compliment the members of your caucus for selecting you as 
the Chairman of the Crime Subcommittee. I look forward to 
working with you, as we have done together on so many issues 
back at home in Virginia, and to find some bipartisan support 
for some of these important crime measures.
    I also want to say today that, because we know there are 
some votes that are going to be coming up pretty soon and we 
have got a huge panel of witnesses, I would like to simply 
insert in the record my opening remarks.
    But there is one point I would like to raise. As you know, 
today we will be marking up three bills immediately following 
the legislative hearing. And in the previous Congress, the 
Crime Subcommittee eventually changed its practice to hold 
markups on a separate day from legislative hearings on the same 
measure.
    And that makes good sense, since the hearing is to review 
the legislation and take testimony on possible changes or 
improvements. It is my understanding, Mr. Chairman, that you 
intend to continue the policy of same-day markups, and that 
such scheduling will be limited to situations where you and I 
can agree to such a schedule or where there is an emergency 
requiring such scheduling.
    I want to thank you for working with us on this issue, and 
I appreciate, as always, your cooperation in confirming this 
arrangement.
    Mr. Scott. If the gentleman would yield, that is the 
intent. These bills have had hearings in the previous Congress 
and did not appear to need an additional hearing. I insisted 
that we have a hearing to maintain regular order, and it is my 
intent to have them on separate days so that we can get the 
full value of the hearing.
    And if there had been any objection on this process today, 
we would have had a separate day.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Scott. If there are no other opening statements, we 
have a distinguished panel of witnesses here before us to help 
us consider the important issues that are currently before us.
    Our first witness, the Honorable Tim Murphy, has 
represented Pennsylvania's 18th Congressional District since 
2003. He currently sits on the Energy and Commerce Committee 
and also serves as co-chair of both the Congressional Mental 
Health Caucus and the 21st Century Health Care Caucus. 
Representative Murphy has a B.A. from Wheeling Jesuit 
University, a master's degree from Cleveland State University, 
and a doctorate from the University of Pittsburgh.
    Our next witness is the Honorable Tom Udall, a Member of 
the United States House of Representatives from New Mexico's 
3rd Congressional District since 1995. He serves on the 
Resources, Small Business and Veterans Affairs Committees. He 
is also vice chairman of the House Native American Caucus. He 
received a B.A. from Prescott College in 1970, a bachelor of 
laws from Cambridge in 1975, and a J.D. from the University of 
New Mexico Law School in 1977.
    Congressman Murphy will be discussing H.R. 740, the PHONE 
Act. Congressman Udall will be discussing H.R. 545, the 
``Native American Methamphetamine Enforcement and Treatment Act 
of 2007.''
    And we will hear from them first and ask them questions. 
They can remain if they want or leave if they want, but we 
would like to have them make their statements at this time.
    Congressman Murphy?

  TESTIMONY OF THE HONORABLE TIM MURPHY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. It is good to see you 
again. It was a pleasure working with you when together we 
dealt with the previous version of the PHONE Act, H.R. 5304. 
And I must say, as I re-read your work, I think you have taken 
a good bill and made it a lot better on something we 
desperately need to have passed here.
    Identity theft, as you know, is an increasingly critical 
problem for consumers. The FTC has said that some 10 million 
individuals are victims of identity theft and that consumer 
complaints come from 255,000 individuals across the States.
    Congress has repeatedly tried to prevent identity theft, 
most recently with the passage of H.R. 5304 in the final days 
of the 109th Congress. Unfortunately, with new technology comes 
new risks and new risks and new opportunities for criminals to 
skirt the law.
    And one of these technologies is call spoofing, or caller 
I.D. fraud, where one masks their identity by altering their 
outbound caller I.D. number in order to mislead the call 
recipient. Some may describe call spoofing as a way to maintain 
caller privacy. I believe it is nothing less than fraud.
    Stealing, masking or otherwise altering one's caller I.D. 
to deceive is a new tool in the hands of criminals. The 
practice of caller I.D. fraud can be tremendously harmful to 
consumers.
    While we have tried in the past to use do not call lists to 
provide some privacy for citizens, some people have found a way 
to get around that by hijacking your phone number that can 
bypass that protection.
    I believe Congress must enact a law to penalize caller I.D. 
fraud perpetrators. This bill is particularly necessary to 
protect American families, the elderly and businesses, because 
illegally using another person's phone number could have 
limitless unlawful applications.
    It doesn't take much imagination to realize how this could 
be. A criminal could try to obtain personal financial 
information from individuals by using a bank's phone number. An 
ex-spouse could harass a former wife or husband who has blocked 
calls from their line.
    A pedophile could stalk a child by stealing a school phone 
number or the phone number of a friend of this child. A sexual 
predator can use a doctor's office phone number. A terrorist 
can make threats to government. The list goes on and on.
    But this is not just a possibility. There is actually 
several examples. One of them is laid out in an AARP Bulletin. 
I would be glad to pass this on, if you wish, Mr. Chairman, for 
inclusion in the record, reported cases in which people 
received calls that they made false claims that they missed 
jury duty.
    To avoid prosecution, the individuals were asked for their 
Social Security number and other personal information. The 
phone number that appeared on their caller I.D., it was the 
local courthouse, so people assumed the caller was telling the 
truth.
    A security company has stated that criminals have accessed 
legal call spoofing Internet sites, such as this one over here 
to my side, in order to protect their identities while they 
bought stolen credit card numbers. They then used a wire 
service such as Western Union and a fake caller I.D. and 
ordered cash transfer money to themselves.
    SWAT teams have been called upon to surround empty 
buildings or other inhabited places, such as in New Brunswick, 
New Jersey, after police received a call from a woman who said 
she was being held hostage in an apartment. She was not in the 
apartment. The woman had intentionally used a false caller I.D. 
number. Imagine what might have happened.
    And I also note that some of these call spoofing sites also 
offer that they will disguise your voice as well as alter your 
phone number.
    For these reasons, I introduced H.R. 5304 in the last 
Congress. That provided some penalties up to $250,000 and some 
fines. In your current version, you have cleared up many of the 
ambiguities that existed in the first bill and made it clear 
what constitutes criminal activity and what is worthy of a 
fine, or imprisonment or both.
    I was pleased to work with the Subcommittee again this year 
to improve the PHONE Act by including the forfeiture of 
equipment used by criminals in call spoofing and adding call 
spoofing to lists of unlawful activities associated with money 
laundering.
    Today, this Subcommittee is proactively considering a good 
idea that addresses a problem before more serious tragedies 
occur. Today we have a chance to help stop crime, prevent 
identity theft and protect lives.
    I applaud the Chairman and the Ranking Member for making 
this legislation a priority of this Subcommittee. I would like 
to thank all of you on this Committee for working with me on 
this bill and for your commitment to the personal identity 
security of all Americans.
    And of course, I would be happy to answer any questions 
later that you might have. Thank you.
    [The prepared statement of Mr. Murphy follows:]
  Prepared Statement of the Honorable Tim Murphy, a Representative in 
                Congress from the State of Pennsylvania
    Mr. Chairman, Ranking Member Forbes, distinguished colleagues of 
the Committee, thank you for inviting me to speak before you today on 
behalf of updated legislation that I introduced in the 109th Congress, 
the Preventing Harassment through Outbound Number Enforcement Act, or 
the PHONE Act.
    Identity theft has become an increasingly critical problem for 
consumers. Last year the Federal Trade Commission revealed that 10 
million individuals are victims of identity theft each year, and 
identity theft is the number one consumer complaint from over 255,000 
individuals in each of the fifty states. The disastrous implications of 
identity theft for consumers include damaged credit and financial ruin, 
and the effects can tear apart families.
    Congress has repeatedly tried to prevent identity theft, most 
recently with the passage of my bill, H.R. 5304. Unfortunately, with 
new technology comes new risks and new opportunities for criminals to 
skirt the law. One of these technologies used by thieves is the 
practice of ``call spoofing,'' or ``caller ID fraud,'' where one masks 
their identity by altering their outbound caller ID number in order to 
mislead the call recipient. Some may describe call spoofing as a way to 
maintain caller privacy. But it is nothing less than fraud.
    Stealing, masking or otherwise altering one's caller identification 
to deceive is a new tool in the hands of criminals. The practice of 
caller ID fraud can be tremendously harmful to consumers.
    Consider the effects of the false use of caller ID in other areas. 
Past federal and state efforts to block unwanted phone solicitations 
with ``Do Not Call'' lists was to provide some privacy for citizens. 
But when someone hijacks your phone number, they can bypass that 
protection.
    I believe Congress must enact a law to penalize caller ID fraud 
perpetrators. This bill is particularly necessary to protect American 
families, the elderly and businesses, because illegally using another 
person's phone number could have limitless unlawful applications. It 
doesn't take much imagination to understand how dangerous this practice 
could be for unlawful people:

        <bullet>  A criminal could try to obtain personal financial 
        information from individuals by using a bank's phone number,

        <bullet>  An ex-spouse could harass a former wife or husband 
        who has blocked calls from the ex-spouse's phone line,

        <bullet>  A pedophile could stalk a child by stealing a school 
        phone number or the phone number of a friend of the child,

        <bullet>  A sexual predator could use a doctor's office phone 
        number, or

        <bullet>  A terrorist could make threats from a government 
        phone number.

    The criminal use of caller ID fraud is not just a possibility. Here 
are some real world examples of caller ID fraud that are real and very 
disturbing:

        <bullet>  The AARP Bulletin reported cases in which people 
        received calls that made false claims that they missed jury 
        duty. To avoid prosecution, these individuals were asked for 
        their Social Security number and other personal information. 
        The phone number that appeared on their caller ID was from the 
        local courthouse, so people assumed the caller was telling the 
        truth.

        <bullet>  The security company, Secure Science Corporation, has 
        stated that criminals have accessed legal call spoofing 
        Internet sites in order to protect their identities while they 
        bought stolen credit card numbers. These individuals then 
        called a money transfer service such as Western Union and used 
        a fake Caller ID and a stolen credit card number to order cash 
        transfers to themselves.

        <bullet>  In 2005, SWAT teams surrounded an empty building in 
        New Brunswick, New Jersey, after police received a call from a 
        woman who said she was being held hostage in an apartment. She 
        was not in the apartment, and the woman had intentionally used 
        a false caller ID. Imagine what might have happened.

    For these reasons, I introduced H.R. 5304 in the 109th Congress to 
punish those who engage in the intentional practice of misleading 
others through caller ID fraud. Violators of the bill would be subject 
to a penalty of up to five years in prison and fines of $250,000. 
Unfortunately, pursuing these criminals is difficult and particularly 
resource intensive.
    In the 109th Congress, I also cosponsored H.R. 5126, the Truth in 
Caller ID Act. However, H.R. 5126 only asked the Federal Communications 
Commission (FCC) to create a rule to prohibit caller ID fraud in six 
months. There are no penalties in the bill and the Senate did not pass 
this legislation. I also included an amendment to prompt the FCC to 
address the practice of caller ID fraud in H.R. 5672, the Fiscal Year 
2007 Science, State, Justice, and Commerce Appropriations Act but 
Congress was unable to sign H.R. 5672 into law. I believe that my bill, 
H.R. 5304, appropriately went further by amending criminal law to fully 
protect Americans from the practice of caller ID fraud, and the House 
agreed when we passed H.R 5304 in the 109th Congress. I was pleased to 
work with the Subcommittee again this year to improve the PHONE Act by 
including the forfeiture of equipment used by criminals in call 
spoofing and adding call spoofing to the list of unlawful activities 
associated with money laundering.
    Over the years, Congress has been criticized as a reactive 
institution. Today, this subcommittee is proactively considering a good 
idea that addresses a problem before more serious tragedies occur. 
Today we have a chance to help stop crime, prevent identity theft and 
protect lives.
    I applaud the chairman for making this legislation a priority of 
his subcommittee. I would like to thank the Chairman and Ranking Member 
of the Subcommittee for working with me on this bill and for their 
commitment to the personal identity security of all Americans. I would 
be happy to answer any questions you might have.

   TESTIMONY OF THE HONORABLE TOM UDALL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Udall. Chairman Scott and Ranking Member Forbes, thank 
you for the opportunity to speak about the methamphetamine 
epidemic on Native American lands and my bill, which aims to 
give tribes resources to combat this ongoing situation.
    The manufacture and use of meth is one of the fastest 
growing drug problems in the nation. Meth is easy to make, with 
the recipe easily available on the Internet and many of its 
ingredients being common to household products.
    According to the Drug Enforcement Administration, there 
were over 12,000 clandestine laboratory incidents in 48 States 
in 2005.
    In addition to its production throughout the country, a 
substantial amount of meth is smuggled into the country. The 
amount of methamphetamine seized at or between the United 
States and the Mexico border ports of entry increased by more 
than 75 percent from 2002 to 2004.
    While increased regulation of the sale and use of meth's 
precursor chemicals has recently led to a decline in domestic 
production, drug traffickers have supplanted this decrease with 
meth produced in other countries.
    Unfortunately, the meth situation has been 
disproportionately worse in Native American communities. The 
2005 National Survey on Drug Use and Health reported, ``Past-
year methamphetamine use rate of 1.7 percent for American 
Indians and Alaskan Natives and 2.2 percent for Native 
Hawaiians.''
    Compare this to use rates for other ethnicities: .7 percent 
for Whites, .5 percent for Hispanics, .2 percent for Asians, 
and .1 percent for African Americans.
    Additionally, while conducting the National Methamphetamine 
Initiative Survey of Native American law enforcement agencies, 
the Bureau of Indian Affairs' first question was, ``What drug 
poses the greatest threat to your reservation?''
    Seventy-four percent of all respondents indicated that meth 
posed the greatest threat to their communities. Placing a very 
distant second to meth was marijuana, at 11 percent.
    Congress has worked to address the growing methamphetamine 
epidemic. Last year Congress passed the Combat Methamphetamine 
Epidemic Act as part of the reauthorization of the USA PATRIOT 
Act.
    The meth provisions were designed to control and regulate 
the availability of meth and its precursor ingredients, to help 
with lab cleanup. It also authorized funding for three 
important grant programs: the COPS Meth Hot Spots program, the 
Drug-Endangered Children program, and the Pregnant and 
Parenting Women Offenders program.
    Unfortunately, the tribal governments were unintentionally 
left out as possible applicants for the Hot Spots and Drug-
Endangered Children's programs.
    Additionally, while tribes were included as eligible 
applicants for the Pregnant and Parenting Women Offenders Grant 
Program, clarifying language is needed to ensure there is ample 
coordination with tribal service providers.
    My legislation, the Native American Methamphetamine 
Enforcement and Treatment Act, seeks to rectify this by 
ensuring that, consistent with tribal sovereignty, tribes can 
apply for the Hot Spots and Drug-Endangered Children grant 
programs.
    It also guarantees greater coordination with tribal service 
providers in the Pregnant and Parenting Women Offenders grant 
program.
    Before I conclude, I want to take a minute to thank 
Representative Dale Kildee, who is lead co-sponsor of this 
legislation, not only for his support but for his work on this 
issue during the last Congress.
    This is one of the many critically important issues Mr. 
Kildee has championed as co-chair of the Congressional Native 
American Caucus. I am honored to be one of Mr. Kildee's co-vice 
chairs on the caucus and honored to work with him on this 
legislation.
    I also want to acknowledge Navajo Nation vice president Ben 
Shelly. As vice president of one of the largest tribes in the 
United States, I believe he will be able to share with us some 
valuable insight on this growing issue, as well as how it is 
being dealt with at the local level.
    I would like to thank him for his willingness to travel out 
here to testify on the importance of this issue.
    Mr. Chairman, tribes have access to these programs to 
combat the meth epidemic on their lands and in their 
communities.
    I urge the Members of the Committee to pass this 
legislation and thank you once again for holding this hearing 
and for allowing me to testify.
    And I welcome any questions from Members of the Committee.
    [The prepared statement of Mr. Udall follows:]
  Prepared Statement of the Honorable Tom Udall, a Representative in 
                 Congress from the State of New Mexico
    Chairman Scott and Ranking Member Forbes:
    Thank you for the opportunity to speak about the methamphetamine 
epidemic on Native American lands, and my bill, which aims to give 
tribes resources to combat this ongoing situation.
    The manufacturing and use of meth is one of the fastest growing 
drug problems in the nation. It is easy to make, with the recipe 
readily available on the internet and many of its ingredients being 
common household products. In 2005, the Drug Enforcement 
Administration, along with state and local law enforcement officials, 
counted over twelve thousand clandestine laboratory incidents in forty-
eight states.
    In addition to its production throughout the country, a substantial 
amount of meth is smuggled into the country. The amount of 
methamphetamine seized at or between United States and Mexico border 
ports of entry increased by more than seventy-five percent from 2002 to 
2004. There has been a recent decline in domestic production due to 
increased regulation of the sale and use of the chemicals that go into 
the creation of meth. Drug traffickers, however, have supplanted this 
decrease with meth produced in other countries. In total, the DEA 
seized over two thousand kilograms of meth in 2005.
    While the facts and statistics at a nationwide level are disturbing 
enough, the situation has been disproportionately worse in Native 
American communities. The 2005 National Survey on Drug Use and Health 
reported a ``past year methamphetamine use'' rate of 1.7 percent for 
American Indians and Alaskan Natives and 2.2 percent for Native 
Hawaiians. Compare this to use rates for other ethnicities--.7% for 
whites, .5 percent for Hispanics, .2 percent for Asians, and .1 percent 
for African Americans. Additionally, while conducting the National 
Methamphetamine Initiative Survey of Native American law enforcement 
agencies, the Bureau of Indian Affairs' first question was ``What drug 
poses the greatest threat to your reservation?'' Seventy-four percent 
of all respondents indicated that meth posed the greatest threat to 
their communities. Placing a very distant second to meth was marijuana, 
at eleven percent.
    Congress has taken steps to address the growing methamphetamine 
epidemic. Last year Congress passed the Combat Methamphetamine Epidemic 
Act as part of the reauthorization of the USA PATRIOT Act. The 
legislation included provisions designed to control and regulate the 
availability of meth and its precursor ingredients and to expand 
measures related to lab cleanup. It also authorized funding for three 
important grant programs--the COPS Meth Hot Spots program, the Drug-
Endangered Children program, and the Pregnant and Parenting Women 
Offenders program.
    The Hot Spots program specifically provides funding for a broad 
range of initiatives designed to assist state and local law enforcement 
in undertaking anti-methamphetamine initiatives. The Drug-Endangered 
Children Grant Program provides comprehensive services to assist 
children who live in a home where meth has been used, manufactured and 
sold. The Pregnant and Parenting Women Offenders Grant Program is 
designed to facilitate cooperation between the criminal justice, child 
welfare, and substance abuse systems in order to reduce the use of 
drugs by pregnant women and those with dependant children.
    These are all extremely important programs, and unfortunately, 
tribal governments were unintentionally left out as possible applicants 
for both the Hot Spots and Drug-Endangered Children programs. And while 
tribes were included as eligible applicants for the Pregnant and 
Parenting Women Offenders Grant Program, clarifying language is needed 
to ensure there is ample coordination with tribal service providers.
    It is for these reasons, that I introduced the Native American 
Methamphetamine Enforcement and Treatment Act. This legislation seeks 
to ensure that, consistent with tribal sovereignty, tribes can apply 
for the Hot Spots and Drug-Endangered Children Grant Programs. It also 
ensures greater coordination with tribal service providers in the 
Pregnant and Parenting Women Offenders Grant Program.
    Mr. Chairman, tribes must have access to these programs to combat 
the meth epidemic on their lands and in their communities. Thank you 
once again for holding this hearing and for allowing me to testify. I 
welcome any questions from the Members of the Committee, as well as any 
suggestions or wisdom on additional ways address this situation.
    Thank you.

    Mr. Scott. Thank you. Thank you very much.
    We have been joined on the Subcommittee--Representative 
Sensenbrenner from Wisconsin was here a minute ago; 
Representative Coble, the former Chairman of the Subcommittee, 
from North Carolina; Representative Delahunt from 
Massachusetts; Representative Nadler from New York; 
Representative Johnson from Georgia.
    I don't have any questions. I will yield to Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Chairman, I just want to compliment both 
Congressman Murphy and also Congressman Udall for the hard work 
they have had on these two bills, and also for the work that 
our staffs have done in coordinating them and bringing them 
together.
    I did have a question. Congressman Murphy, have you had any 
experience with call spoofing in your office?
    Mr. Murphy. Actually, we did. An organization, we don't 
know who they were, ended up using our congressional office 
phone number to make calls to constituents.
    Now, it is part of the American way to provide freedom of 
speech. It is a whole other thing to pose as a congressman's 
office. And of course, we were then inundated with calls 
complaining why we are calling people's homes with these 
messages.
    That can certainly be done not only with Members of 
Congress but under any circumstance. You heard from Chairman 
Scott, about how someone might use this as a fake number when 
they are making other sales pitches, et cetera.
    So it is just another form of harassment that is out there.
    Mr. Forbes. I have also heard that they can use Web sites 
for call spoofing, and have you heard anything about that? And 
how do they go about doing that?
    Mr. Murphy. Well, what I have here is one particular 
company that advertises you can change your voice. It is very 
simple. You just call a number and use a PIN number, and then 
you can type in whatever number you want, be it a neighbor, a 
friend, an enemy, the White House, whatever that might be.
    While doing this, what these sites also do is they block 
your ability to use *57, which is tracing the call; *69, the 
last call returned; anonymous call rejection; or detailed 
billing. So they can really be very anonymous.
    And think of what this means, then, if someone calls a 
police department with a false alarm or a fire department, or 
if it is someone harassing an individual. You simply cannot 
react quickly without trying to find out Web site or what 
procedure was done, and even law enforcement officials find it 
difficult.
    There is no immediate response that they can have to trace 
this down.
    Mr. Forbes. And it is my understanding that there is not at 
this time any current Federal statute that deals with spoofing, 
is that----
    Mr. Murphy. There is none. Last year, Congress passed some 
legislation calling upon the FCC to investigate this, and there 
was another bill that--these didn't really go through the 
Senate, and this is the first one that really puts penalties on 
those procedures.
    Mr. Forbes. Good.
    And, Congressman Udall, can you tell us what sort of 
benefits can we expect to see on Native American lands from 
these grants? How will they utilize some of these grants?
    Mr. Udall. Ranking Member Forbes, I think when you are 
talking about Hot Spot grants and the other grants that are 
mentioned here, I would expect Native American communities to 
use these like other communities would, to go out, if there is 
a meth lab that has been busted, and there is a polluting 
leftover lab there, to utilize that to help the cleanup.
    In terms of the children grant, you are dealing with a 
very, very sensitive situation where there is a bust that goes 
down and there are children that are a part of it. For law 
enforcement to work with the children that are part of that and 
try to make sure they are well taken care of, that they are not 
impacted in a way that hurts them in any way--that kind of 
effort.
    And I would expect that you would see a much healthier, 
safer community as a result of the utilization of these grants 
on Native American land.
    Mr. Forbes. And I know we have some other fine witnesses 
that are going to be testifying in just a few moments, but it 
is my understanding there has been requests and demands from 
the Native American governments for this kind of aid, is that 
fair to say?
    Mr. Udall. Yes, that is fair to say, and as probably many 
of you on this Committee know, frequently it is the case that 
the trust relationship between the Federal Government and the 
tribes--that in various pieces of legislation and in the law 
today--tribes are allowed to go directly to Federal agencies 
and get grants rather than having to go through the States.
    And that has been a trend, I think, in place for 15 years 
or 20 years, and really what we are doing is just updating that 
trend.
    You will hear from the vice president of the Navajo Nation, 
Ben Shelly, who I mentioned in my statement. He will talk about 
the difference between going through a State and the tribe 
being able to apply directly and how much that makes a 
difference to them.
    Mr. Forbes. Good.
    I yield back.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Delahunt?
    Mr. Delahunt. I have no questions.
    Mr. Scott. Thank you.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief.
    Mr. Udall, I realize some grant funds to tribal governments 
I think have been in the pipeline. Do the tribal governments in 
your district have the resources to investigate and apprehend 
meth dealers?
    Mr. Udall. It is a mix, to answer your question directly, 
on whether or not they have the resources. Generally, the 
tribes in my jurisdiction have misdemeanor jurisdiction to do 
criminal investigations.
    On the other hand, felonies are handled under the Major 
Crimes Act through the U.S. Attorney's Office and in 
cooperation with the BIA and other law enforcement authorities.
    And so generally, it depends on the characterization of the 
specific crime and what crime it is and where the locus of that 
crime is in order to answer those questions.
    Mr. Coble. I thank you.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Mr. Nadler?
    Mr. Nadler. Except to congratulate Congressman Udall and 
Congressman Murphy, I will emulate the Chairman and say I have 
no questions.
    Mr. Scott. Thank you.
    Mr. Johnson?
    Mr. Johnson. I have no questions. Thank you.
    Mr. Scott. Mr. Murphy and Mr. Udall, you can remain or 
leave. It is your decision. But we are going to go on with the 
other witnesses. And if you want to remain available for 
questions, that is a decision you can make.
    Our next witness is Mr. Barry Sabin, the deputy assistant 
attorney general in the criminal division, United States 
Department of Justice. Since January 2006 he has been 
responsible for overseeing the fraud section, criminal 
appellate section, gang squad and capital case unit. Prior to 
that, he served as the chief of the criminal division's 
counterterrorism section and has been a Federal prosecutor 
since 1990. He received bachelor's and master's degrees from 
the University of Pennsylvania and his law degree from New York 
University School of Law.
    Then we have Mr. Ben Shelly, vice president, Navajo Nation, 
Window Rock, Arizona. Prior to holding his current office, he 
served as a delegate to the Navajo Nation Council for 8 years, 
spent 4 years as chairman of its budget and finance committee.
    We then will have Mr. Wayne Pacelle, president and CEO of 
the Humane Society of the United States. During his tenure, he 
has utilized a wide variety of strategies, including political 
strategies such as ballot initiatives and referendums, to 
successfully further his organization's goals. In recognition 
of his efforts, he was named 2005 Executive of the Year by 
NonProfit Times. He received his bachelor's degree from Yale 
University in 1987.
    Our final witness will be Mr. Jerry Leber, president of the 
United Gamefowl Breeders Association. He served his community 
for 32 years as an educator at the university and high school 
levels. During that time, he also was very active in the 
gamefowl community, which led him to his current position.
    In light of the vote, I think we will just wait until we 
have voted, just recess for a few minutes. It will probably 
take about 20 minutes for us to get back, so we will recess 
until we can get back. It will be about 20 minutes.
    The Committee is in recess.
    [Recess.]
    Mr. Scott. The Committee will come to order.
    We will begin with the testimony from Mr. Sabin.

 TESTIMONY OF BARRY SABIN, DEPUTY ASSISTANT ATTORNEY GENERAL, 
              UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Sabin. Good afternoon, Mr. Chairman, Ranking Member 
Forbes, Members of the Subcommittee. It is my pleasure to 
appear before you today to discuss legislation seeking to 
prevent caller I.D. spoofing.
    We appreciate the work of Congressman Murphy last session 
and his ongoing efforts today in support of this issue.
    The United States Department of Justice supports 
congressional action such as this to provide law enforcement 
additional tools and penalty provisions so as to protect our 
citizens and our country from identity thieves, stalkers and 
other criminals.
    Caller I.D. spoofing is the modification of caller I.D. 
information that causes the telephone network to display a 
number and other information on the recipient's caller I.D. 
display that is not the number of the actual caller.
    Recently, caller I.D. spoofing services have become widely 
available, greatly increasing the number of people who have 
access to this tool to deceive others.
    By outlawing the misuse of caller I.D. spoofing, this bill, 
with modifications we have respectfully recommended, can 
improve the Justice Department's ability to prevent and 
prosecute crimes ranging from identity theft to harassment to 
pretexting.
    Although the widespread availability of these services is 
relatively new, we are already seeing criminals use caller I.D. 
spoofing to facilitate crime, and we fear they could use it to 
hamper investigations.
    For example, caller I.D. spoofing can lend credibility to a 
criminal trying to trick an individual into giving up private 
information, such as a credit card number or Social Security 
number.
    By making it appear that the call is coming from a 
legitimate charity or bank, from a business's customer, or even 
from the office of a political campaign, criminals can more 
easily fool victims into giving up private information.
    Another example is a pretexter, who calls a telephone 
company pretending to be a subscriber and tries to obtain the 
subscriber's private telephone records. If the caller I.D. 
information matches the subscriber's home telephone number, the 
pretexter can more easily gain access to those private records.
    Caller I.D. spoofing can also create opportunities for 
abusers who could not otherwise contact their victims to reach 
into those victims' homes and further harass them.
    Misleading caller identification information could cause a 
victim to accept a call they would otherwise avoid or 
circumvent automatic call-blocking that would have prevented 
the harassing call from being connected.
    Obviously, caller I.D. spoofing can help to hide the 
identity of a criminal, but it can go further, actually 
defeating security measures that would have prevented a crime.
    Businesses sometimes use caller I.D. information as part of 
their fraud prevention measures, as a way of confirming the 
identity of the caller. If the information fed into these 
systems is inaccurate, the security measures might be defeated 
and allow transactions or access to private information that 
would otherwise have not been permitted.
    Moreover, caller I.D. spoofing services could complicate 
criminal investigations. For example, if kidnappers were to use 
caller I.D. spoofing, law enforcement involved in fast-moving 
investigations could lose valuable time chasing down the wrong 
path.
    These concerns are not theoretical. We know that criminals 
are using these caller I.D. spoofing services to further their 
crimes today. As noted in my written prepared statement, there 
is the matter in southern California of James Turner Hopper, 
who pleaded guilty to several Federal felony offenses involving 
identity theft and was sentenced to 30 months' incarceration.
    Hopper admitted that he obtained over 100 credit card 
numbers and associated identity information and used caller 
I.D. spoofing more than 150 times to steal money.
    In another instance, a criminal used caller I.D. spoofing 
and voice-alteration software to repeatedly call a police 
officer and threaten to kill the officer and his family. 
Because the criminal spoofed the caller-ID, it became very 
difficult to determine the source of the calls.
    Addressing the problem, of course, must be done carefully. 
We note that there is no present requirement that providers of 
caller I.D. spoofing services make any effort to verify that 
the person requesting to place a call with altered caller I.D. 
has any right to use the number requested. The lack of 
verification allows the misuses I have described.
    Moreover, some claim that caller I.D. spoofing serves to 
protect people's privacy, but a caller who wishes to remain 
anonymous already has an option to use caller I.D. blocking, 
preventing his or her number from being known.
    Simply put, the caller gets to make a choice about whether 
to reveal his or her number, and the called party gets to make 
a choice about whether to accept an anonymous call. 
Transmitting information that misleads or deceives the called 
party does not provide any additional privacy benefit.
    Overall, the Justice Department believes that this bill is 
narrowly targeted at harmful uses of caller I.D. and supports 
Congress providing the department the further ability to combat 
the threats caused by caller I.D. spoofing.
    The Justice Department has a number of recommendations that 
it believes will make the bill stronger and more effective. We 
have provided these suggestions separately and in detail.
    Among other things, the department suggests clarifying the 
description of the offense, modifying the punishment provision, 
revising the law enforcement provision to be an exception 
rather than an affirmative defense, and other suggested 
technical recommendations.
    The Department of Justice appreciates this subCommittee's 
leadership in making sure that our country's laws meet this new 
challenge. Thank you for the opportunity to testify today and 
for your continuing support.
    I am happy to try and answer any questions you may have.
    [The prepared statement of Mr. Sabin follows:]
                  Prepared Statement of Barry M. Sabin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Thank you.
    And I forgot to remind everybody--Mr. Sabin, I appreciate 
you keeping your remarks to 5 minutes.
    I forgot to remind everyone that we would appreciate it if 
you would keep your remarks to 5 minutes. I appreciate you 
doing so.
    Mr. Shelly?

           TESTIMONY OF BEN SHELLY, VICE PRESIDENT, 
                 NAVAJO NATION, WINDOW ROCK, AZ

    Mr. Shelly. Mr. Chairman, Mr. Vice Chairman, distinguished 
Members of the Subcommittee on Crime, thank you for inviting me 
to testify.
    I am Ben Shelly, vice president of the Navajo Nation. On 
behalf of the Navajo Nation, I am honored to testify on the 
critical need to address the meth abuse in Indian Country.
    A year ago, there was a meth-related execution-style triple 
homicide on the Navajo Nation. This happened in the small 
community of Hogback, New Mexico within sight of the 
community's chapter house. The first victim was shot 14 times. 
The second was shot nine times. And the third had seven gunshot 
wounds and a close contact wound to her head. The trial of the 
accused suspect is about to begin.
    Two months later, in March 2006, an 81-year-old Navajo 
grandmother, her 63-year-old daughter, and her 39-year-old 
granddaughter were arrested and charged with criminal 
possession with intent to distribute meth. Police raided their 
home in the tiny community of Felcon, Arizona, on the Navajo 
Nation.
    Four years ago, there were 14 meth-related deaths in Tuba 
City, Arizona, a Navajo town of 9,000. Back then, a study 
showed that 12 percent of the Tuba City teens used meth and 17 
percent of town adults were also using.
    According to the chief of special investigation for the 
Bureau of Indian Affairs, meth is the drug of choice in Indian 
Country. Crystal meth ranked second only to marijuana among 
illegal drug use on native land.
    The Navajo Area Indian Health Service tells us that 2,167 
patients were treated for meth in the year 2000. Over an 8-
month period in 2004, that rose to 4,077 patients.
    In 2005, 40 percent of all drug-related calls for police 
assistance within the seven districts of the Navajo department 
of law enforcement were for meth use and trafficking.
    The FBI tells us that 40 percent of all violent crime 
committed on the Navajo Nation are directly related to meth use 
and trafficking.
    In 2006, there were 32 Federal indictments involving the 
distribution of meth in the Navajo Nation. Congressmen, as time 
goes on, the numbers reflecting police calls--percentage--
assault, death and murder related to meth will likely go up.
    What we are faced with is the national epidemic of meth 
use, with all of its critical medical problems, violent crime, 
uncontrolled rage, suicide and murder, not to mention the 
simple problem of incarceration, broken lives and families.
    It bores deep into the traditional Native American 
communities of the North America. Unfortunately, the Navajo 
Nation was slow to act to this invasion. But it acted. In 
February 2005, the Navajo Nation council enacted legislation to 
prohibit the manufacture, distribution, sale, possession and 
use of meth.
    Even with this, tribal resource and facilities are too 
limited to implement the law to its fullest extent. We need the 
help that the Native American Meth Enforcement and Treatment 
Act can give us.
    Without question, this Federal law is in the best interest 
of all Native American and Alaska natives to amend the Omnibus 
Crime Control and Safe Street Act of 1968 in order to allow 
native people to receive grants to confront the use of meth.
    Throughout Indian Country and particularly the Navajo 
Nation, there is a critical need for increased funding for 
prevention, education, intervention, treatment service, law 
enforcement, aftercare and maintenance programs for those who 
use and abuse meth and for the family and community that are 
affected by the production and distribution of meth.
    The Navajo Nation strongly supports amending the Combat 
Meth Epidemic Act of 2005 as part of the PATRIOT Act 
reauthorization bill. The measure will allow tribal 
participation for three grant program within the Department of 
Justice: the COP Hot Spot program, the Drug-Endangered Children 
program, and the Pregnant and Parenting Women Offenders 
program. Tribal participation will aid in the fight against the 
meth epidemic.
    Congressmen, thank you for providing the Navajo Nation the 
opportunity to testify and submit its written testimony on H.R. 
545, the Native American Meth Enforcement Treatment Act of 
2007.
    We look forward to continued discussion to bear some 
partnership opportunity that will help Indian tribe address 
meth in the Indian Country. And we thank you very much, 
Congressmen.
    [The prepared statement of Mr. Shelly follows:]
                    prepared statement of ben shelly
                              introduction
    Chairman Conyers, Ranking Member Smith, and members of the 
Subcommittee on Crime, Terrorism and Homeland Security, thank you for 
inviting me to testify.
    My name is Ben Shelly, Vice President of the Navajo Nation. On 
behalf of the Navajo Nation, I am honored to testify concerning H.R. 
545, the Native American Methamphetamine Enforcement and Treatment Act 
of 2007. The Navajo Nation appreciates the subcommittee's interest on 
the impact of methamphetamines in Indian Country. The Navajo Nation 
believes that it is in the best interest of Native American and Alaska 
Natives to amend the Omnibus Crime Control and Safe Streets Act of 1968 
to provide opportunities for Tribes to receive grants to combat the use 
of methamphetamine.
                          health care services
    The Indian Health Service (IHS), an agency within the U.S. 
Department of Health and Human Services, is responsible for providing 
federal health services to Native Americans and Alaska Natives. The 
Navajo Area Indian Health Service (Service) is one of the IHS' 12 area 
offices, and is the principal health care provider on the Navajo 
Nation. The Service serves the Navajo Nation, the San Juan Southern 
Paiute Tribe, and other eligible beneficiaries through inpatient, 
outpatient, contracts for specialized care, Indian Self-Determination 
and Education Assistance Act contract providers, and an urban Indian 
health program.
    The health care network includes six hospitals, six health centers, 
fifteen health stations and twenty-two dental clinics. The Service is 
responsible for providing health care services to nearly 237,000 users; 
spending $1,600 per person per year for comprehensive health services 
in its hospitals and health clinics. This is about 50 percent below the 
per person expenditures by public and private health insurance plans. 
The Service receives funding that only meets approximately 54 percent 
of the health needs for the patient population it serves, and provides 
health care services at a level of only $1,187 per person. As a point 
of reference, the federal government spends more than twice this amount 
on health care for federal prisoners.
                       navajo division of health
    In 1977, the Navajo Nation Council established the Navajo Division 
of Health (NDOH) to plan, develop, promote, maintain, preserve, and 
regulate the overall health, wellness and fitness programs for Navajo 
population. The NDOH operates with Federal, State and Tribal resources 
in the delivery of health services to the Navajo Nation. In fiscal year 
2006, the NDOH had a budget of about $61 million and employed 995 
health professional, paraprofessional and technical personnel stationed 
throughout the Navajo Nation.
    In addition to providing health care services to the Navajo people, 
NDOH advocates for enlarging health delivery capacity and improving 
public health concerns such as health promotion/disease prevention, 
alcohol and substance abuse, elder care, and diabetes prevention to 
name a few. NDOH promotes individual and family health, family unity 
and family support to prevent disease and promote health, wellness and 
fitness. An eight member Health and Social Services Committee of the 
Navajo Nation Council serves as the legislative oversight committee for 
NDOH.
                        health care disparities
    In spite of the ongoing goals of the US Department of Health and 
Human Services, Navajos and other Native Americans continue to 
experience tremendous disparities in health care distribution and 
funding. Federal funding for Indian health care has not kept pace with 
factors such as the rising costs of health care, increasing costs of 
pharmaceuticals, and competitive salaries for recruitment and retention 
of qualified health care professionals. The figure below depicts the 
impact of these disparities on the local Navajo Nation health care 
system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While Navajo people compare favorably in the following health 
areas, analysis of 30-year data indicates favorable Navajo rates are 
approaching the general population rates, and may surpass the U.S. 
rates over time as they have for other statistics.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              impact of methamphetamine in indian country
    The escalating problem of methamphetamine is affecting the entire 
nation and has reached epidemic levels in rural communities including 
Indian Country. Methamphetamine use and production places tremendous 
burden on the already severely under-funded Indian health care system 
and law enforcement. While alcohol and substance abuse has been a 
chronic disease, the impact of methamphetamine is considerably greater 
due to the addictive and deadly nature of the drug.
    In April 2006, the Senate Committee on Indian Affairs held a 
hearing on ``The Problem of Methamphetamine in Indian Country'' in 
which various Federal officials and Tribal leaders testified. At that 
hearing, the Indian Health Service described the situation as a crisis 
for individuals, families, communities, agencies, and governments 
across the country. The Indian Health Service referenced information 
from a September 2005 report by the Substance Abuse and Mental Health 
Administration's National Survey on Drug Use and Health. That report 
revealed that in 2004 an estimated 1.4 million persons aged 12 or older 
had used methamphetamine in the past year, and 600,000 had used it in 
the past month. The highest rates of past year methamphetamine use were 
found among Native Hawaiians and Pacific Islanders. Methamphetamine use 
among Native Americans and Alaska Natives rated third highest at 1.7 
percent. The Federal government has sufficient alarming data on 
methamphetamine abuse in Indian Country to declare a state of emergency 
and provide adequate resources and support to combat this devastating 
problem in partnership with tribes, states, local agencies and 
communities.
    To combat the methamphetamine problem at the tribal level, in 
February 2005, the Navajo Nation Council enacted legislation 
prohibiting the manufacturing, distribution, sale, possession and use 
of methamphetamine. However, due to funding constraints and severe 
shortage of detention facilities, it is difficult to enforce the 
methamphetamine law and hold inmates who violate the tribal law. The 
Navajo Division of Public Safety (NDPS) is concerned with the lack of 
adequate jails and bed spaces needed to house the growing number of 
offenders. With over 30,000 annual arrests, the NDPS system could only 
house 100 inmates at one time. Many of these detention centers were 
built over 25 years and do not meet current building codes.
    The Navajo Department of Law Enforcement (NDLE) was established to 
maintain law and order by enforcing applicable criminal laws and 
safeguarding the lives and property of people on the Navajo Nation. The 
NDLE apprehends and incarcerates all misdemeanor offenders in Navajo 
Nation detention facilities, and refers all felony offenders for 
prosecution through the Federal Judicial System. In fiscal year 2006, 
the NDLE employed 48 criminal investigators and approximately 373 
uniform officers. The Department's $25 million budget covers three Law 
Enforcement Programs including Detention, Criminal Investigation and 
Police.
    The NDLE had been combating methamphetamine related problems with 
the Navajo Nation's limited resources until the U.S. Department of 
Justice awarded the NDLE an $181,000 Community Oriented Policing (COP) 
grant. This COP grant provided the ability of the NDLE to purchase 
equipment and support operational costs. In addition, Arizona Governor 
Napolitano provided $20,000 in funding to support the Coalition of the 
Navajo Nation. The Coalition works with Arizona Navajo communities to 
encourage coordination between communities and programs to address 
methamphetamine problems
    As an illustration of the impacts of methamphetamine on the Navajo 
People, in January 2006, a triple homicide in Hogback, New Mexico 
involved methamphetamine use in which the first victim had been shot 14 
times, the second had been shot 9 times, and the third 7 gunshot wounds 
and a close contact wound to her head. Unfortunately, the tragedy of 
methamphetamine use does not discriminate based on age. In March 2006, 
an 81 year old grandmother, her 63 year old daughter, and her 39 year 
old granddaughter were all charged with criminal possession with intent 
to distribute methamphetamine, and other controlled substances, after 
police raided their home.
    As a means to address the methamphetamine problems on the Navajo 
Nation, the Navajo Division of Health's Department of Behavioral Health 
Services (DBHS) directed its personnel to find alternative methods to 
address the problems associated with the use and production of 
methamphetamine in Navajo communities. Subsequently, several 
methamphetamine task forces comprising of community members and various 
tribal programs were established to coordinate and address the 
methamphetamine-related problems. The DBHS initiated methamphetamine 
abatement activities including the use of media such as radio station 
and newspaper, and presentations at various communities throughout the 
Navajo Nation. These mass prevention activities lead to the production 
of a film ``G: Methamphetamine on the Navajo Reservation.'' These 
activities generated national attention such as a story entitled, On 
Navajo Reservation, a New Tool in the Fight Against Drugs, which was 
featured in The New York Times on February 21, 2005
    The DBHS staff provided presentations on the effects of 
methamphetamine use at various locations around the Navajo Nation. At 
the conclusion of each presentation, the staff received stories from 
the audience regarding the effects of methamphetamine. In one case, an 
individual reported that her niece had begun hearing things one evening 
and claimed the walls were bugged. She tore down the walls of their 
home with a hammer and hatchet, and eventually crawled into the ceiling 
in search of the listening devices. Unfortunately, the ceiling was weak 
and she fell through to the floor below. Another individual reported an 
incident involving a teenager who did not know she was pregnant and had 
smoked methamphetamine until the ninth month of her pregnancy. After 
the teenager got sick, she ended up in the emergency room where doctors 
found her deceased unborn baby. The teenager later died from her 
ordeal.
    From October 1997 through February 2005, Navajo Area Indian Health 
Service facilities reported 450 cases of ``amphetamine-related'' abuse 
in its facilities. (See table below). Generally, the majority of these 
are emergency room cases. Strikingly, during this period, 35 percent of 
the cases were reported by the Tuba City Indian Medical Center located 
in Arizona.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Additionally, the Navajo Area Indian Health Service reported that 
2,167 individuals were treated for methamphetamine use in 2000, and 
4,077 individuals were treated in eight months in 2004. The numbers 
unfortunately speak for themselves: this problem is growing 
exponentially.
    The IHS is not currently coding methamphetamine-use or abuse 
resulting in a pack of concrete data on which to draw an accurate 
picture of methamphetamine use. Generally, Navajo Area Indian Health 
Service facilities code visits and/or hospitalizations involving 
methamphetamine-use or abuse with one or two ICD-9 codes. The 450 cases 
reported in the table above resulted from a query of all visits limited 
to only the two codes and there may additional cases that exist which 
due to the lack of adequate coding are not reported
    According to the 2005 National Youth Risk Behavior Survey (YRBS) 
Report, 14 percent of Native American high school students used 
methamphetamine one or more times during their life. 10,691 Native 
American students participated in the survey. The National YRBS 
monitors priority health risk behaviors that contribute to the leading 
causes of death, disability, and social problems among youth and adults 
in the United States. The National YRBS is conducted every two years 
and administered in public and private schools throughout the United 
States, including on Navajo Nation.
    The Navajo DBHS uses an integrated multi-disciplinary approach 
model using Western 12-step Recovery, Alternative Treatment/Navajo 
Traditional and Faith Based Initiative components. Currently, the 
Navajo DBHS' services units include 13 outpatient treatment centers, 2 
adolescent treatment centers and one adult residential treatment center 
with additional services provided through contract services. One of the 
Navajo DBHS treatment centers located in Shiprock, New Mexico reported 
methamphetamine-related cases from the total enrolled cases during 2004 
to 2006. (See table below).
    Several major Navajo communities have formed Methamphetamine 
Community Task Forces (MCTFs) involving community members, direct 
services providers and government entities to create coalitions that 
address the needs arising from methamphetamines use. The Navajo Nation 
was one of the first Native Nations to take a proactive stance to act 
upon policy issues, options and recommendations in the areas of 
prevention, treatment, enforcement, and to develop best practices to 
educate the population with culturally appropriate programs.
    The MCTFs have developed various projects ranging from hosting 
expert forums, conducting audience interviews, facilitating group 
discussion to consider the full potential of strategies utilizing 
social marketing, media literacy or educational forums. Some of the 
other projects included:

        <bullet>  Printed brochures/facts sheets about methamphetamine.

        <bullet>  Newsprint and printed posters about the negative 
        effects of Methamphetamine.

        <bullet>  Radio and television public service announcements in 
        the Navajo language.

        <bullet>  News articles in local newspapers, health 
        publications, and magazines at local and national levels.

        <bullet>  Power point presentations at community centers, 
        schools and interested organizations.

        <bullet>  Participated in the production of a film, ``G: 
        Methamphetamine on the Navajo Nation.''

        <bullet>  Legislative Policy Changes--Each methamphetamine task 
        force provided overwhelming support to make methamphetamine an 
        illegal substance on the Navajo Nation.

        <bullet>  Radio Forums. A local Radio Station KTNN hosted a 
        series of one-hour educational program about methamphetamine 
        for a period of two months spring 2006. The final program was 
        broadcasted live for two hours in duration.

        <bullet>  Community conferences.

    Throughout Indian Country and particularly the Navajo Nation, there 
is a need for not only an increase in funding but also access to 
federal and/or state funding for the development of prevention, 
education, intervention, treatment services and aftercare and 
maintenance programs. These programs are essential for those who use 
and abuse methamphetamine, and for families and communities who are 
affected by the production and distribution of methamphetamine. Any 
reduction in mental health and behavioral health services funding that 
are used to address this problem only increases the use, abuse, 
production and distribution of this drug. According to the FBI, about 
40% of all violent crimes committed on the Navajo Nation are directly 
related to methamphetamine use and trafficking. In 2006, there were 32 
federal indictments pending trial involving the distribution of 
methamphetamine on the Navajo Nation.
                               conclusion
    The Navajo Nation supports increased funding for Indian tribes 
across the United States. The enactment of H.R. 545 will provide 
opportunities for tribes to compete and access funds. The Navajo Nation 
recommends that an Indian set-aside provision based on the population, 
and incidence and prevalence rates be considered in the H.R. 545.
    Thank you for providing the Navajo Nation the opportunity to 
testify and submit its written testimony on H.R. 545, Native American 
Methamphetamine Enforcement and Treatment Act of 2007. We look forward 
to expanding and strengthening our regional and national partnership 
opportunities so that the Indian Nations will receive much needed 
resources to eradicate the use of methamphetamine in Indian Country.

    Mr. Scott. Thank you.
    Mr. Pacelle?

 TESTIMONY OF WAYNE PACELLE, PRESIDENT AND CEO, HUMANE SOCIETY 
              OF THE UNITED STATES, WASHINGTON, DC

    Mr. Pacelle. Thank you, Mr. Chairman. And thanks to all the 
Members who are sitting here today for co-sponsoring H.R. 137, 
a bill to combat animal fighting.
    I am Wayne Pacelle. I am president and CEO of the Humane 
Society of the United States. HSUS has 10 million members and 
constituents in the U.S., one of every 30 Americans. We are 
strongly in support of this legislation.
    Every State in the country now has an animal cruelty 
statute that criminalizes malicious acts of cruelty toward 
animals. Dog fighting and cock fighting and hog-dog fighting 
clearly constitute animal cruelty.
    And in this country, at the State level, all 50 States have 
prohibitions against dog fighting, 48 States have prohibitions 
against cock fighting, and in 1976 when the Congress passed the 
law to criminalize the interstate transport of animals for 
fighting purposes, not a single State had felony-level 
penalties for these practices.
    Now, 48 States have felony-level penalties for dog 
fighting, 33 States have felony-level penalties for cock 
fighting, and we are expecting to see a number of other States 
pass felony penalties this year.
    What we are simply asking this Committee to do is to 
upgrade the penalties for this existing Federal statute to 
crack down on the rampant practice of organized and staged 
animal fighting in this country.
    You know, there are lots of controversial and tough moral 
questions about how we treat animals in society, but staged 
animal fights where people are putting animals in a pit to 
fight to injury or death just for the amusement and illegal 
wagering purposes is not a tough moral question.
    Three basic points, Mr. Chairman and other Members of the 
Committee. First is the animal cruelty. This is not a practice 
where the animals just spar a little bit and live another day. 
There have been documented dog fights where the animals fight 
for 5 hours at a time.
    Blood loss is a cause of death. Shock is a cause of death. 
There are many other painful and traumatic deaths of these 
animals--hog-dog fights where hogs are released in a pen and 
pit bulls are sicced upon the animals to attack the animal and 
bring the animal down, or cock fights where the birds have 
knives or ice-pick-like devices called gaffs strapped to their 
legs to enhance the bloodletting, punctured lungs, gouged eyes, 
and other grievous wounds, simply inflicted so people can be 
titillated by the bloodletting.
    We have seen time and time again, week after week--all you 
need to do is go to Google and do a search for ``cock 
fighting'' or ``dog fighting.'' See the busts that occur across 
the country and see the connection between animal fighting and 
other forms of criminal activity.
    These operations are gateways to narcotics traffic, public 
corruption, illegal gambling and even violence toward people. 
Just a couple of weeks ago, we were involved in a bust in 
Virginia. It is important to note that North Carolina has a 
stronger anti-cock fighting law than Virginia.
    Two-thirds of the people came over the line into Virginia 
because of the weaker penalty in order to participate in these 
organized cock fights. There was $40,000 in cash confiscated. 
There were seven members of MS-13 and the Mexican mafia 
arrested at this cock fight.
    Homicides at cock fights and dog fights--there was a man 
murdered. He won $100,000 at a dog fight. Four armed men went 
to his home and killed him.
    Public corruption--we have seen police corrupted in Hawaii. 
The South Carolina commissioner of agriculture was on the take 
trying to protect a cock fighting ring in South Carolina.
    In Tennessee, the FBI and other Federal law enforcement 
agents were involved last year in shutting down two of the 
largest cock fighting pits in the country. And I want to just 
quote from the Federal court papers, just a couple of excerpts.
    ``On March 15, 2003, the cooperating witness reported 
observing approximately 182 cock fights at the Del Rio cock 
fight pit.'' This is in one evening. ``On average, between 
$2,000 and $20,000 was gambled by the spectators on each 
fight.'' So if you assume an average of $10,000 per fight, 182 
fights, $1.82 million wagered in a single night at a cock fight 
in east Tennessee.
    A second excerpt: ``The cooperating witness observed a 
girl, approximately 10 years old, with a stack of $100 bills 
gambling on several different cock fights. Vehicles were 
observed in the parking lot bearing license plates from North 
Carolina, South Carolina, Alabama, Georgia, Kentucky and 
Virginia, underscoring the nature of the interstate trade and 
traffic in these animals for fighting purposes.''
    A third quote: ``On April 26, 2003, a cooperating witness 
attended the cock fights at the Del Rio pit and observed more 
than 100 cock fights. The witness observed persons betting on 
the cock fights to include 15 to 20 children of approximate 
ages 7 to 15 betting on several cock fights.'' And on and on 
and on.
    Children, narcotics traffic, public corruption--how many 
cruelties perpetrated at these staged animal fights? For what 
purpose? You know, if you are going to use animals in society, 
there better be a compelling social purpose for it. But just to 
be titillated by the bloodletting is a terrible circumstance.
    And I will close in terms of--my third major point is the 
connection between cock fighting and bird flu and other avian 
diseases. The shipment of cock fighting birds is a threat to 
spread bird flu. It has been a vector for dissemination of the 
virus in Southeast Asia.
    We saw what happened in California with a less severe 
disease, Exotic Newcastle Disease. There were birds moved up 
from Mexico, and then it was a network of backyard cock 
fighting operations in southern California that helped to 
spread this.
    It cost the Federal Government $200 million to try to 
contain this disease. Twelve million birds had to be destroyed. 
That is why the poultry industry supports the legislation. It 
is why 500 law enforcement agencies support the legislation, 
local and State law enforcement agencies. That is another 
compelling reason to pass this legislation.
    Just absolutely in closing, Mr. Chairman, U.S. attorneys 
have told us they are reluctant to pursue cases because it is a 
misdemeanor. This Federal statute has already been upheld by 
several Federal courts. Animal fighting activities are rampant. 
The States do need assistance.
    This gives law enforcement at the Federal level and at the 
State level and the local level more tools to crack down on 
extreme animal cruelty and the criminal conduct associated with 
dog fighting, cock fighting and hog-dog fighting.
    Thank you very much.
    [The prepared statement of Mr. Pacelle follows:]
                  Prepared Statement of Wayne Pacelle
    Thank you, Mr. Chairman, for the opportunity to testify in support 
of H.R. 137, the Animal Fighting Prohibition Enforcement Act. I am 
Wayne Pacelle, president and CEO of The Humane Society of the United 
States, the nation's largest animal protection organization with 10 
million members and constituents--one of every 30 Americans. The HSUS 
has worked to combat animal fighting since our organization's inception 
in 1954, conducting animal fighting workshops for law enforcement, 
publishing a manual for law enforcement personnel, and collaborating 
with law enforcement agencies in investigating and raiding illegal 
animal fights. Our investigators have been undercover at dogfights, 
cockfights, and hog-dog fights, documenting animal abuse, gambling, and 
other illegal conduct. We have worked extensively at the state and 
federal level in advocating for the adoption of strong anti-animal 
fighting laws, and we have sought funding and provided training for 
enforcement.
    I want to thank the primary authors of the legislation--Elton 
Gallegly, Earl Blumenauer, and Roscoe Bartlett, who have been dogged in 
their determination to crack down on this criminal conduct in the 
United States. I also thank Representatives Collin Peterson and Robert 
Andrews, who, at one time or another during the past seven years, have 
been authors or co-authors of bills or amendments in Congress to crack 
down on animal fighting activities.
    H.R. 137 has 300 cosponsors--more than two-thirds of the House--and 
included among the cosponsors are 30 members of the Committee on the 
Judiciary. An identical Senate companion bill, S. 261, introduced by 
Senators Maria Cantwell, John Ensign, Arlen Specter, and Dianne 
Feinstein, also has a long list of cosponsors, and a nearly identical 
bill was approved by unanimous consent in that chamber in April 2005. 
The House and Senate bills have more than 500 endorsing groups, 
including all major humane organizations, the American Veterinary 
Medical Association, the National Chicken Council, the National 
Coalition Against Gambling Expansion, the National Sheriffs' 
Association, and nearly 400 local law enforcement agencies covering all 
50 states. The only organizations opposing the legislation are 
cockfighting, dogfighting, and hog-dog fighting organizations. No 
legitimate agricultural groups or law enforcement groups oppose this 
legislation, to our knowledge.
           history of animal fighting issue in congress and 
                     scope of proposed legislation
    Congress first passed legislation to combat animal fighting just 
more than 30 years ago. In 1976, the House overwhelmingly passed 
amendments to the Animal Welfare Act (7 U.S.C. 2156) to create a new 
section of the Act to bar any interstate transport of animals for 
fighting purposes. The Senate passed legislation banning interstate 
transportation of dogs for fighting, but did not include the anti-
cockfighting language. When the matter went to conference, lawmakers 
retained anti-cockfighting language, but created a loophole that 
allowed interstate transport of fighting birds to states, territories, 
and countries where cockfighting was legal.
    In 2002, the House and Senate approved provisions in the Farm bill 
to close that loophole and to ban any interstate or foreign transport 
of fighting animals, including birds. Both the House and the Senate 
also passed enforcement provisions to make any violation of the section 
a felony. (Representative Blumenauer and Senator Ensign were the 
authors of these amendments). But when the Farm Bill went to 
conference--even though the animal fighting provisions in the House and 
Senate bills were identical--the upgrade in the jail time was removed, 
and the penalties for violating the law remained as misdemeanor 
penalties.
    Under current federal law, it already is illegal to:

        1)  Sponsor or exhibit an animal in an animal fighting venture 
        if the person knows that any animal was bought, sold, 
        delivered, transported, or received in interstate or foreign 
        commerce for participation in the fighting venture.

        2)  Knowingly sell, buy, transport, deliver, or receive an 
        animal in interstate or foreign commerce for purposes of 
        participation in a fighting venture, regardless of the law in 
        the destination.

        3)  Knowingly use the Postal Service or any interstate 
        instrumentality to promote an animal fighting venture in the 
        U.S. (e.g., through advertisement), unless the venture involves 
        birds and the fight is to take place in a state that allows 
        cockfighting. As explained on USDA's website explaining the 
        federal animal fighting law, ``In no event may the Postal 
        Service or other interstate instrumentality be used to 
        transport an animal for purposes of having the animal 
        participate in a fighting venture, even if such fighting is 
        allowed in the destination state.''
    Current law applies to dogfighting, cockfighting, hog-dog fights, 
and other fights between animals ``conducted for purposes of sport, 
wagering, or entertainment,'' with an explicit exemption for activities 
``the primary purpose of which involves the use of one or more animals 
in hunting another animal or animals, such as waterfowl, bird, raccoon, 
or fox hunting.''
    H.R. 137 seeks to import the animal fighting provisions of the 
Animal Welfare Act and place them in Title 18, and to build on them by 
authorizing jail time of up to three years for violations of federal 
animal fighting law, and to create a new crime prohibiting interstate 
and foreign commerce in the primary implements used in cockfights.
      federal animal fighting law is unquestionably constitutional
    There is no question that Congress has the power to ban the 
interstate transport of fighting birds. Indeed, the 2002 amendments 
making interstate transport a misdemeanor have already been upheld in 
the federal courts.
    Shortly after the 2002 amendments, the United Gamefowl Breeders 
Association (UGBA) and other cockfighting interests challenged the 
measure in Federal District Court in Lafayette, La., claiming among 
other things that the measure exceeded Congress' authority under the 
Commerce Clause. The court rejected every claim raised.
    In an extensive opinion, Judge Rebecca F. Doherty--who was 
nominated to the federal bench by George H.W. Bush--concluded that the 
ban was a legitimate exercise of Congress' power to regulate interstate 
commerce because Congress was aware when it enacted the ban that ``a 
substantial amount of money was expended annually as a result of the 
flow across state lines of gamefowl for the purpose of cockfighting 
ventures.'' UGBA v. Veneman, No. 03-970 (W.D. La. May 31, 2005). Judge 
Doherty unequivocally rejected the argument that Congress lacks the 
power to restrict immoral uses of the channels of interstate commerce, 
explaining that ``it is no argument against congressional authority to 
declare that Congress is acting on `moral' grounds against those 
committing acts which an overwhelming majority of states have declared 
to be criminal.''
         cockfighting interests elected not to file an appeal.
    A few days later, a three-judge panel of the Court of Appeals for 
the Eighth Circuit reached the same decision, rejecting a nearly 
identical suit claiming that the nationwide ban violates the Commerce 
Clause, is unconstitutionally vague, and effectuated a ``taking'' of 
private property in violation of the 5th Amendment. Slavin v. USA, 403 
F.3d 522 (2005). Here again, there was no appeal.
    In the face of multiple federal court decisions declaring that the 
current misdemeanor provisions banning interstate transport are 
consistent with the Commerce Clause, the Due Process Clause, and 
Supreme Court ``takings'' jurisprudence, there really are no plausible 
legal arguments against enacting felony penalties for these 
prohibitions.
    But the cockfighters have nonetheless been creative in trying to 
evade the law in the field, and have hatched some novel if implausible 
legal theories. Some cockfighters apparently thought they could get 
around state and federal law and continue their enterprise as long as 
they staged their fights on Indian land. Such schemes are prohibited 
under current federal law, and will continue to be prohibited under the 
legislation before us today. Just more than a week ago, a federal jury 
convicted four men--three from Oklahoma and one from Texas--for being 
spectators at a cockfight held in Indian country, and close to 70 
others entered guilty pleas. As the U.S. Attorney said, ``gamefowl 
enthusiasts should know that tribal lands offer no `safe haven' for 
animal fighting.''
         background on animal fighting practices and state laws
    There exists a virtual national consensus that animal fighting 
should be a crime. Massachusetts was the first state to ban animal 
fighting in 1836, and a majority of states banned the activity during 
the 19th century, indicating that this activity offended basic American 
sensibilities relating to cruelty to animals more than a century ago.
    All 50 states now ban dogfighting, and cockfighting is prohibited 
in 48 states. Voters have approved ballot initiatives in Arizona, 
Missouri, and Oklahoma in the last decade to outlaw cockfighting in 
those states and to make it a felony in each of them. Cockfighting is 
legal only in parts of Louisiana and New Mexico, and reputable public 
attitude surveys reveal that more than 80 percent of citizens in each 
of those two states want to see cockfighting outlawed and made a 
felony; dogfighting is already a felony in both states. We expect to 
see both states ban cockfighting in 2007. In recent years, the practice 
of hog-dog fighting has come to light, principally in the South. Once 
learning of the phenomenon, state lawmakers have reacted swiftly. 
Alabama, Louisiana, North Carolina, Mississippi, and South Carolina 
have passed legislation specifically banning hog-dog fights within the 
last two years.
    Animal fighting raids have gone up dramatically in recent years. 
There are busts each week, and these busts reveal two things: first, 
animal fighting is very widespread and is conducted through the United 
States, and second, law enforcement, including federal authorities, are 
taking the matter more seriously than ever. Passing H.R. 137 will give 
federal and state authorities more tools to crack down on interstate 
and foreign movement of fighting animals.
    There are three nationally circulated, above-ground cockfighting 
magazines--Grit & Steel, The Feathered Warrior, and The Gamecock--that 
collectively have nearly 20,000 subscribers, and there are numerous web 
sites such as Pitfowl.com and Gamerooster.com. There are at least 10 
underground dogfighting magazines. Strong state and federal laws, along 
with adequate enforcement, are needed to crack down on illegal 
operators and deter individuals from participating in this conduct.
    All animal fighting spectacles operate on the same principles. 
Animals are typically bred for fighting purposes, and trained for 
fighting. They are placed in a pit--often after they are provided with 
stimulants to make them more aggressive or blood-clotting drugs--with 
another animal and then goaded to fight.
    Dogfights may last several hours, and it is not unusual for one or 
both dogs to die from blood loss or shock, as a result of hundreds of 
bite wounds. Cockfighting roosters have knives or gaffs attached to 
their legs, and the birds kick one another, with the strapped weapons 
piercing lungs, gouging eyes, and inflicting other grievous wounds. In 
hog-dog fights, boars' tusks are cut off and they are placed in a pen. 
One or more pit bulls are then released, and the dogs attack the hog, 
resulting sometimes in the ears of the boar being torn off or their 
jowls being ripped open. Most of the injuries are sustained by the 
hogs, not the dogs.
    The people who instigate and watch animal fights enjoy the 
spectacle, just as people in ancient Rome watched staged fights between 
gladiators or animals. Dogfighters profit by setting higher stud fees 
for winning dogs. The puppies of champion fighters are sold for $1,000 
a dog or more. A successful cockfighter can sell a breeding trio, a 
cock and two hens, for several thousand dollars. The cost of raising 
that rooster and two hens is minimal, but the profits are substantial. 
Fighting animals are sold to people across state lines, with the 
cockfighting magazines providing hundreds of ads for ``breeding 
trios.'' With the misdemeanor penalties in existing law offset by such 
large profits, the fighters do not even think twice before shipping 
these animals all over the country. The other prime motivation is 
illegal wagering, as spectators gamble on the combatants. No state or 
local jurisdiction allows this form of gambling as a regulated, legal 
enterprise.
         animal fighting associated with other criminal conduct
    Dogfighting and cockfighting are often associated with other 
criminal conduct, such as drug traffic, illegal firearms use, gang 
violence, and murder. Some dogfighters steal pets to use as bait for 
training their dogs; trained fighting dogs also pose a serious threat 
to our communities. We have a pit bull epidemic in many cities 
throughout the nation, and dogfighting has played no small part in 
contributing to this problem and in introducing thousands of vicious 
and powerful dogs into our communities--threatening other animals, 
children, and even adults.
    In January, The Humane Society of the United States worked with the 
Mecklenberg County Sheriff's Office in southern Virginia and an array 
of state and federal law enforcement authorities on a raid of a major 
pit near the North Carolina border. There were 145 arrests, and three-
fourths of those charged came from North Carolina, where the state had 
adopted a strong felony law in December 2005. Because Virginia has one 
of the weakest anti-cockfighting laws in the country, the practice has 
surged in the state, and the weak penalties in the federal law have not 
been a sufficient deterrent. At this cockfight, there was $40,000 in 
cash confiscated, and law enforcement authorities identified 7 members 
of MS 13 and the Mexican mafia.
    Just last week, HSUS investigators just infiltrated a pit in 
Kentucky, near the Tennessee border. Our investigators reported 500 
people in attendance, with the pit having theater-style seating, 
concession stands, and a $20 entry fee. License plates from throughout 
the South were evident in the parking area, with many people coming 
from Tennessee, where federal authorities in 2005 shut down two of the 
largest pits in the country. The cockfighters are an adaptable group 
and pivoted to participate in cockfights just over the state line. 
Investigators observed approximately half a million dollars change 
hands on just a single day,
    A particularly disturbing aspect of cockfighting is the common 
presence of young children at these spectacles. Children as young as 
six years old have been observed making wagers and acting as runners 
for bettors at cockfighting clubs. During a raid in Sutter County, Cal. 
two young children were abandoned at the side of the arena by the 
adults who had brought them to the cockfights. In another California 
case, a mother of a six-year-old boy was assaulted by her husband when 
she refused to allow him to take their son to a cockfight. He was 
subsequently arrested for spousal abuse and possession of gamecocks for 
fighting purposes and illegal paraphernalia.
    In 2005, as I mentioned above, agents from the FBI and other 
federal and state law enforcement agencies shut down two of the 
nation's largest cockfighting pits, the Del Rio Cockfighting Pit and 
the 440 Cockfighting Pit in Cocke County, Tennessee. These raids were 
part of a larger anti-corruption investigation by the FBI that has 
uncovered chop shops, prostitution, narcotics traffic, illegal 
gambling, and cockfighting in east Tennessee. Several top law 
enforcement officers with the Cocke County Sheriff's office were 
arrested, charged and convicted of a range of criminal activity; they 
were directly involved in illegal conduct and operating a protection 
racket.
    In two complaints filed on June 17, 2005 in U.S. District Court in 
the Eastern District of Tennessee, the United States attorney reported 
the following facts. This information shows the scope of cockfighting 
activity, the attendance of hundreds of people at a single cockfighting 
derby, the extraordinary sums wagered at cockfights, the interstate 
nature of the activity, and the involvement of children at the events.

        ``On March 15, 2003, a cooperating witness reported observing 
        approximately 182 cock fights at the Del Rio cockfight pit. On 
        average, between $2,000 and $20,000 was gambled by the 
        spectators on each fight.'' (p. 6)``The cooperating witness 
        observed a girl approximately 10 years old with a stack of $100 
        bills gambling on several different cock fights. Vehicles were 
        observed in the parking lot bearing license plates from North 
        Carolina, South Carolina, Alabama, Georgia, Kentucky, and 
        Virginia.'' (pp. 6-7)

        ``On April 26, 2003, a cooperating witness attended the 
        cockfights at the Del Rio pit and observed more than 100 
        cockfights with the displayed total prize money of $20,900 
        posted inside the fights. The witness observed persons betting 
        on the cockfights, to include fifteen to twenty children of 
        approximate ages seven to fifteen betting on several 
        cockfights.'' (p. 7)

        ``On May 17, 2003, a cooperating witness attended the Del Rio 
        cockfights and observed that a full capacity crowd of 
        approximately 600 to 700 people were present at the fights.'' 
        (p. 7)

        ``On May 24, 2003, a special agent of the Federal Bureau of 
        Investigations, acting undercover, attended the Del Rio 
        cockfights. . . . The agent observed approximately 200 to 300 
        people in attendance and the fights on this day feature two 
        teams per person with six roosters per team. The entry fee for 
        the roosters appears to be $100 per rooster. . . . With 
        approximately 100 teams participating, the operators of the Del 
        Rio cockfight pit would have taken in that day approximately 
        $60,000 in entry fees and between $4,000 and $6,000 in 
        spectator admissions.'' (p. 8)

        ``On Saturday, March 8, 2003, a cooperating witness attended 
        the cockfights at the 440 pit and observed between 300 and 400 
        people at the fights. The witness also observed several 
        vehicles present at the fights bearing out of state license 
        plates, including Alabama, Florida, Georgia, Virginia, 
        Kentucky, North Carolina, and South Carolina. . . . The witness 
        observed approximately 100 different cockfights . . . several 
        thousand dollars were bet on each fight by different persons 
        observing the fights. During one fight, the witness observed 
        one individual lose $10,000 on the fight. The witness observed 
        approximately $20,000 to $30,000 in bets exchange hands on each 
        fight. . . . The witness also observed five or six children 
        under the age of twelve inside the fights.'' (p. 6-7)

        ``On April 19, 2003, a cooperating witness attended the 
        cockfights at the 440 pit. The witness observed between 80 and 
        90 fights and estimated the crowd at the fights to be between 
        200 and 300 people. . . . The witness also observed twelve to 
        fifteen children, of approximate ages six to fourteen years, 
        betting on individual chicken fights. Each of these children 
        was wearing an entrance fee ticket attached to their clothing. 
        (p. 8)

        ``On April 26, a cooperating witness attended the cockfights at 
        the 440 pit. . . . While at the fights, the witness observed 
        approximately 60 fights and estimated the crowd at the fights 
        to be more than 300 persons. Additionally, the witness observed 
        several children who were involved in cockfights and betting on 
        particular fights.'' (p. 8-9)

        ``On Saturday, May 3, 2003, a cooperating witness attended the 
        cockfights at the 440 pit, and observed 48 different 
        cockfights. . . . The witness observed between twelve and 
        fourteen children, approximate ages six to thirteen, inside the 
        establishment, with most of the children gambling on different 
        cockfights throughout the night.'' (p. 9-10)

        ``On June 7, 2003, a cooperating witness attended the 
        cockfights at the 440 pit. Approximately 150 people were 
        present and there were approximately 39 separate fights. The 
        witness observed eight to ten children present at the 
        cockfights.'' (p. 10)

    This litany of facts about cockfighting shows it is no benign 
activity. It is organized crime, where children are thrust into these 
dens of criminality with substantial money being wagered illegally. 
State and local law enforcement officials have been corrupted, and have 
themselves turned into criminals. The federal government has, within 
the last year, also been involved in a series of arrests of local law 
enforcement in Hawaii involving protection rackets for illegal 
cockfights, demonstrating that the circumstances in Tennessee are not 
isolated cases. And in South Carolina, state Agriculture Secretary 
Charles Sharpe was convicted of accepting $10,000 from organizers of a 
cockfighting pit in exchange for helping the group avoid legal trouble. 
Sharpe was removed from office and drew a two-year prison sentence for 
extortion and lying to a federal officer.
   the federal law against animal fighting needs to be strengthened, 
                   and it is best placed in title 18
    During consideration of the 2002 Farm bill, both the House and 
Senate unanimously approved felony-level penalties for illegal animal 
fighting ventures. The policy reform under consideration today--an 
upgrade in penalties for illegal animal fighting activities--has 
already met with favor by both the House and Senate.
    Misdemeanor penalties don't provide a meaningful deterrent to 
animal fighters, especially when thousands of dollars are wagered on a 
single dog or cock fight. Relatively small fines, and brief jail 
sentences, are considered a cost of doing business. To be meaningful, 
the penalties must offset the gain that comes from participating in 
these crimes. For instance, most of the Virginia cockfighters arrested 
earlier this month pled out at $500 per man, and that simply is not a 
sufficient deterrent for people wagering thousands of dollars at a 
single cockfight.
    What's more, animal fighters know that federal officials will 
rarely pursue cases because of the misdemeanor penalties in the 
statute. U.S. Attorneys have told us they are reluctant to pursue 
animal fighting cases if at the end of the process they can seek only a 
misdemeanor penalty. The only reason that the U.S. Attorney filed 
charges in the Tennessee cases was the massive corruption and other 
criminal activity associated with cockfighting in Cocke County.
    Because of the varying penalties throughout the nation, we are 
seeing the states with the weakest penalties becoming magnets for 
cockfighting. In December 2005, North Carolina became the 32nd state to 
punish cockfighting as a felony. In February of 2006, two cockfights 
were raided in South Carolina-- a misdemeanor state-- and 55 people 
were arrested. A majority of them were cockfighters who lived in North 
Carolina but had traveled across state lines to escape felony penalties 
and fight in a state where the maximum punishment they would likely 
face was a $100 fine. If H.R. 137 had been law in February 2006, many 
of those cockfighters would have had to think twice before shopping 
around for the nearest state where they could go to commit their crime 
without fear of any serious punishment.
    When the Congress enacted the federal animal fighting law in 1976, 
no states made animal fighting a felony. Today, dogfighting is a felony 
in 48 states, and cockfighting is a felony in 33 states. State laws 
commonly authorize jail time of 3 to 5 years or more for animal 
fighting. The Animal Fighting Prohibition Enforcement Act brings 
federal law in line with state laws and other federal laws related to 
animal cruelty.
    Congress in 1999 authorized penalties providing up to five years in 
jail for interstate commerce in videos depicting animal cruelty (P.L. 
106-152), and mandatory jail time of up to 10 years for willfully 
harming or killing a federal police dog or horse (P.L. 106-254). Since 
the Congress passed a law making it a felony to sell videos showing 
dogfighting and cockfighting, it stands to reason that the core 
activity--animal fighting itself--should warrant felony-level penalties 
also. H.R. 137 provides up to three years in jail for people who 
transport animals for fighting purposes in interstate or foreign 
commerce--still lower than other related federal and state law 
penalties, but at least felony level.
    H.R. 137 also expands federal animal fighting law to include 
interstate and foreign commerce in sharp implements designed 
exclusively for cockfights. Razor-sharp knives known as ``slashers'' 
and ice pick-like gaffs are attached to the legs of birds to make 
cockfights more violent. These weapons, used only in cockfights, are 
sold through cockfighting magazines and the Internet. To effectively 
deter the movement of animals for fighting, Congress should also 
prohibit transport of the fighting implements that make the sport 
possible and have no other purpose.
    Dogfighting and gang activity are now intertwined throughout the 
nation. High-end drug dealers are buying the most prominent fighting 
dogs and matching them for large sums of money. In one dogfight near 
Houston, Tex. last summer, $100,000 was on the line. The winner of the 
fight, Thomas Weigner, was later ambushed at his home and murdered by 
four armed men. Authorities believe these men follow the dogfighting 
circuit, and knew Weigner had a large sum of cash in his home.
    Given the widespread criminal conduct associated with organized 
illegal animal fighting activities, it is appropriate that the crime be 
placed in Title 18. The FBI is often involved in interdicting narcotics 
traffic, and has made a priority of rooting out public corruption. 
While this bill will not take any authority away from USDA and its 
Office of Inspector General--whose personnel have been very much 
engaged on the issue of animal fighting in recent years and who will 
continue to play a major role in cracking down on illegal animal 
fighting ventures--the bill will augment that work by allowing other 
federal departments to become more engaged on animal fighting 
enforcement.
 gambling with our lives: cockfighting and the spread of avian diseases
    The initial explosion of the Asian avian influenza strain H5N1 in 
early 2004, leading to the deaths of over 100 million chickens across 
eight countries in Southeast Asia, was traced back to the trade in live 
birds for commerce. The timing and pattern were not consistent with 
known migratory bird routes. The initial spread of this disease seems 
to have been via the highways, not the flyways.
    The riskiest segment of trade may be in fighting cocks, who are 
transported long distances both within and across countries' borders to 
be unwilling participants in the high-stakes gambling blood sport. In 
cockfights, the fighting implements guarantee bloodletting. Surviving 
birds may be sprayed with blood and infected, and even the handlers may 
be sprayed with blood and infected by the virus. A number of 
cockfighting enthusiasts, and children of cockfighters, have died.
    The Thai Department of Disease Control, for example, described a 
case of a young man who died from bird flu and who had ``very close 
contact to . . . fighting cocks by carrying and helping to clear up the 
mucous secretion from the throat of the cock during the fighting game 
by using his mouth.'' As one leading epidemiologist at the Centers for 
Disease Control commented dryly, ``That was a risk factor for avian flu 
we hadn't really considered before.''
    The movement of gaming cocks is implicated in the rapid spread of 
H5N1. Malaysian government officials, for example, blame cockfighters 
as the main ``culprits'' for bringing the disease into their country by 
taking birds to cockfighting competitions in Thailand and bringing them 
back infected. Thailand, a country with an estimated 15 million 
fighting cocks, was eventually forced to pass a nationwide interim ban 
on cockfighting. The Director of Animal Movement Control and Quarantine 
within the Thai Department of Livestock Development explained what led 
them to the ban: ``When one province that banned cockfights didn't have 
a second wave outbreak of bird flu and an adjacent province did, it 
reinforced the belief that the cocks spread disease.'' A study of 
Thailand published in 2006 concluded, ``We found significant 
associations at the national level between HPAI [H5N1] and the overall 
number of cocks used in cock fights.''
    According to the Food and Agriculture Organization of the United 
Nations, cockfighting may also have played a role in making the disease 
so difficult to control. During mass culls in Thailand, for instance, 
bird owners received about 50 baht, about $1.25, in compensation for 
each chicken killed--less than the bird's market value even for meat. 
Some prized fighting cocks fetch up to $1,000. So it is no wonder that 
owners may be reluctant to report sick birds
    Fighting cocks were reportedly hidden from authorities and 
illegally smuggled across provincial lines and country borders, not 
only complicating the eradication of H5N1, but potentially facilitating 
its spread, causing some officials to throw up their hands. 
``Controlling the epidemic in the capital is now beyond the ministry's 
competence,'' Thailand's Deputy Agriculture Minister told the Bangkok 
Post, ``due to strong opposition from owners of fighting cocks, who 
keep hiding their birds away from livestock officials.''
    A different poultry virus--exotic Newcastle disease (END)--struck 
California in 2002 and inflicted major economic damage, thanks in part 
to cockfighting. This outbreak, which spread to Arizona, Nevada, New 
Mexico, and Texas, caused the destruction of nearly 4 million chickens 
at a cost to federal taxpayers of around $200 million and led to a 
multinational boycott of U.S. poultry products.
    While it is only a theory that gamefowl brought the disease to this 
country then, it is a known fact that once END arrived, movement of 
gamefowl distributed the disease all over the region. It could have 
been isolated but for the vast network of backyard cockfighting 
operations. The high mobility of the gamecocks, related to meetings, 
training, breeding, and fighting activities, played a major role in the 
spread of the disease once it became established in California. 
Although agriculture inspectors could not pinpoint the exact route by 
which the disease jumped to Las Vegas and into Arizona, law enforcement 
had an idea. ``We'll raid a fight in Merced County and find people from 
Nevada, New Mexico, Mexico, Arizona, and Southern California,'' said a 
detective with the Merced County California Sheriff's office. ``They 
bring birds to fight and take the survivors home.'' Cockfighting also 
played a role in the previous exotic Newcastle disease outbreak in 
California which led to the deaths of 12 million chickens.
    During the course of containment following the 2002 outbreak, 
agriculture officials were staggered by the number of illegal 
cockfighting operations--up to 50,000 gamecock operations in southern 
California alone, according to some estimates. Despite being illegal in 
the state for more than 100 years, and despite hundreds of arrests, 
state law enforcement officials say cockfighting thrives--all of this 
in a state with a misdemeanor penalty.
    Former U.S. Agriculture Secretary Ann Veneman endorsed legislation 
to establish felony level penalties for violations of the federal 
animal fighting law in a May 2004 letter, in which she said that the 
bill would ``enhance USDA's ability to safeguard the health of U.S. 
poultry against deadly diseases, such as exotic Newcastle disease and 
avian influenza.'' She indicated that cockfighting has ``been 
implicated in the introduction and spread of exotic Newcastle disease 
in California in 2002-2003, which cost U.S. taxpayers nearly $200 
million to eradicate, and cost the U.S. poultry industry many millions 
more in lost export markets. . . . We believe that tougher penalties 
and prosecution will help to deter illegal movement of birds as well as 
the inhumane practice of cockfighting itself.''
    According to the cockfighters' trade association, the UGBA, there 
are thousands of operations that raise fighting cocks across the 
country. In states where raising birds for blood sports is illegal, 
breeders claim the cocks are being raised as pets or for show. A major 
2004 report released by the USDA on biosecurity among backyard flocks 
across the country found that only about half of the gamefowl 
operations--operations that tend to raise cockfighting birds--were 
following even the most basic biosecurity fundamentals, such as paying 
proper attention to potentially contaminated footwear.
    With American roosters participating in competitions in Asia, like 
the 2006 World Slasher Cup, it's clear that fighting birds are being 
shipped illegally around the world. All it takes is one contraband 
avian Typhoid Mary smuggled from Asia into some clandestine domestic 
cockfight to spread bird flu throughout the United States. 
Strengthening penalties and improving enforcement on interstate 
transport of fighting cocks in America, as well as putting the final 
two nails in the cockfighting coffin by banning the practice in 
Louisiana and New Mexico, may help protect the health of America's 
flocks and America's people.
    The National Chicken Council (NCC), the trade association for the 
U.S. commercial poultry industry, agrees. The NCC damns cockfighting 
not only as ``inhumane,'' but as posing a serious and constant threat 
of disease transmission to the commercial industry, and it has endorsed 
this legislation.
    In August 2005, the North Carolina Department of Agriculture Food 
and Drug Safety Administrator told a gathering of federal and state 
officials that current U.S. Postal Service regulations ``are inadequate 
and present great potential for contamination of the poultry 
industry.'' He estimates that each day, thousands of fighting cocks and 
other fowl lacking health certificates enter North Carolina, 
potentially placing the state's massive poultry industry at risk. 
``Chickens find transport a fearful, stressful, injurious and even 
fatal procedure,'' one group of researchers concluded, and it's well-
documented that this high level of stress can make birds more 
susceptible to catching, carrying, and spreading disease. The legal and 
illegal international trade in fighting cocks makes the blood sport no 
safe bet.
    Last year, law enforcement officials in San Diego County arrested 
individuals attempting to bring cockfighting birds into California. 
Birds coming into the country from Mexico, Asia, or other countries or 
continents pose a grave threat of spreading dangerous avian diseases to 
the United States, jeopardizing the health of poultry flocks and human 
populations. The idea of regulating this trade--now that 33 states have 
felony level penalties for this conduct--is unrealistic and fanciful. 
The American public will not tolerate decriminalization of 
cockfighting, and the best response now is the adoption of 50 state 
felony laws and a federal felony law that provide a sufficient 
deterrent to individuals who want to engage in this frivolous sport.
    Opponents of this legislation argue that felony penalties would 
drive cockfighters underground and make it more difficult to get their 
cooperation during disease outbreaks. But in Asian countries where 
cockfighting is perfectly legal, authorities have had great difficulty 
getting the cooperation of cockfighters and bird flu has spread in part 
because of their determination to hide their birds. Here in the U.S., 
cockfighters have revealed their intentions to conceal their birds in 
the event that bird flu emerges here. Cockfighting magazines have 
instructed their readers to hide their ``best birds'' on an alternate 
property site and purchase months' worth of feed in advance so that, if 
a bird flu outbreak occurs, they won't draw attention to themselves by 
going to the feed store. This is an industry that already operates 
underground in the U.S.; it can hardly go further underground. It is 
time to eliminate the industry and all of the problems it fosters.
              cockfighting is not an agricultural activity
    Since 1999, the UGBA and other cockfighting groups have spent 
hundreds of thousands of dollars to bottle up this legislation. The 
UGBA is a criminal syndicate, financing its federal lobbying activities 
at least in part from fees collected at illegal cockfights throughout 
the country. Staff from The Humane Society of the United States 
assisted the FBI in its investigation into public corruption in east 
Tennessee, and accompanied federal agents when they raided the Del Rio 
Cockfighting Pit. Our staff witnessed a letter from the UGBA on display 
at the pit thanking the Del Rio pit for a donation of several thousand 
dollars to the registered lobbyist of the UGBA. This criminal syndicate 
is paying lobbyists in Washington, D.C. to thwart passage of H.R. 137, 
and that should be unacceptable to this committee.
    In fact, the Del Rio Cockfighting Pit was owned by a former 
president of the UGBA named Don Poteat. The day it was raided the 
owner's wife, Donna Poteat, was the acting Secretary of the UGBA. This 
is nothing new for the UGBA leadership. A prior president of the UGBA, 
Red Johnson, was arrested when his illegal cockfighting pit was raided 
some years ago in Vinton County, Ohio. The man testifying today for the 
opponents of H.R. 137, Jerry Leber, is a self-identified cockfighter.
    It is a distortion for cockfighting apologists to suggest that 
gamefowl breeders--whether the UGBA or state associations--engage in 
legitimate agricultural activities. The USDA and others involved in 
agriculture do not consider the rearing of birds for fighting to be a 
legitimate agriculture enterprise and do not account for the sale of 
cockfighting birds as part of the agricultural economy, just as we do 
not consider the rearing of dogs for fighting or the growing of 
marijuana or cocaine to be legitimate agriculture operations. Farmers 
grow or raise food or fiber for legitimate social purposes, such as 
feeding or clothing people. It is unacceptable to raise animals simply 
so that they can fight to the death. It is unfortunate that 
cockfighters try to trade on the good reputation of farmers by 
attempting to associate themselves with normal agricultural practices 
and production methods.
    Animal fighting is a bloody and indefensible practice. It is 
closely associated with other criminal activity. Dogfighting poses a 
threat to the well-being of children with the rearing of powerful and 
aggressive dogs. Cockfighters, given their worldwide industry, may play 
a central role in spreading avian influenza to this country. The 
leading legislative body in the world should shut the door as tightly 
as it can on these practices by immediately enacting the Animal 
Fighting Prohibition Enforcement Act. Thank you for allowing me to 
testify today.

    Mr. Scott. Thank you very much.
    Mr. Leber?

 TESTIMONY OF JERRY LEBER, PRESIDENT, UNITED GAMEFOWL BREEDERS 
                    ASSOCIATION, ALBANY, OH

    Mr. Leber. Chairman Scott and Members of the Committee, I 
would summarize my full written statement and request that the 
full statement and its attachments be part of the full record.
    My name is Jerry Leber. I am president of the United 
Gamefowl Breeders Association. I saw my first game rooster at 9 
years old, been an admirer of gamefowl ever since.
    Thank you for the opportunity to share the views of the 
United Gamefowl Breeders Association and the gamefowl industry 
on H.R. 137.
    H.R. 137 is a piece of legislation that would essentially 
make felons out of normal, hard-working, taxpaying Americans. 
Should this legislation be passed, the U.S. Government is 
equating the interstate and foreign transportation of gamefowl 
with murder, rape, child pornography and other heinous crimes.
    There seems to be far more serious and far more important 
issues facing our country, such as terrorists, poverty, illegal 
immigration, missing children and the like.
    This legislation is adamantly supported by domestic 
terrorist groups, animal rights groups, the HSUS and those who 
support extreme animal rights groups.
    The FBI sees the number one domestic threat as the animal 
rights movement. According to John Lewis, FBI deputy assistant 
director of counterterrorism, ``The animal rights groups pose 
the most serious domestic terror threat in our country.''
    Five of the top 11 people from the FBI domestic terrorist 
wanted list have ties to animal rights groups. These are not 
people who raise gamefowl. These are not people we represent.
    Over 12,000 attacks by animal rights groups in the last 15 
years has resulted in the loss of millions and maybe billions 
of dollars to our economy.
    John Boss, a physician, well-known activist in the animal 
rights movement, has openly condoned the assassination of 
people who do testing on live animals. He says that a few 
examples of assassinations will greatly change the views of 
those in the animal industry.
    The Humane Society of the United States and other animal 
rights groups kill an estimated 4 million to 5 million dogs, 
cats, kittens and little wet-nosed puppies every year under the 
name of being humane.
    The HSUS has senior managers who are reported to be 
convicted criminals as a result of animal rights activities. 
And these are the groups that support this legislation and 
advocate its passage.
    When I read Genesis 1:26, that man shall have dominion over 
all the animals and that animals were put on earth for man's 
use, I must have missed the part about according to the agenda 
of the HSUS.
    H.R. 137 on the surface seems to be supported by law 
enforcement agencies across the country, but individually they 
see it is a total waste of their time, energy and taxpayers' 
dollars.
    In my 8 years of working with law enforcement personnel and 
countless conversations, never once was this type of 
legislation ever mentioned as being wanted or needed.
    If illegal gambling, drug trafficking, terrorist cells and 
spreading of threatening disease exists as professed by the 
HSUS, bring the industry out in the open. License, regulate, 
inspect, test, tax, oversee. Don't enact legislation that may 
create more severe or greater problems. Enact legislation to 
resolve these problems.
    In a letter dated 1/23/07 from Ron Sparks, Alabama 
commissioner of agriculture, he states, ``Their''--the gamefowl 
breeders--``continued cooperation is imperative for a 
successful disease surveillance and prevention program. And 
their business has a powerful impact on Alabama's economy.''
    The last outbreak in the Southwest, 2002-2003, of Exotic 
Newcastle disease, a gamefowl breeder was the first to report 
that outbreak, and had it not been, according to Dr. Francine 
Bradley at the University of California-Davis, had the gamefowl 
breeder not reported the outbreak, it may have been five times 
or 10 times greater than it actually was.
    It was the gamefowl breeder who brought this to the 
attention of Government officials, not the poultry person or 
the backyard flock who first had it and did not report or 
failed to report it.
    The passing of H.R. 137 would have a devastating impact on 
our country's economy. Research shows that the gamefowl 
industry generates $2 billion to $6 billion a year for the 
economy.
    With more and more jobs being sent out of our country, how 
can we rationally and logically justify eliminating an industry 
that annually contributes billions of dollars to our economy?
    The WashingtonWatch.com Web site shows 88 percent of the 
people opposed to H.R. 137. These are unsolicited responses 
from your constituents, citizens from every part of the country 
that expect and demand Government to meet their needs.
    Is H.R. 137 for the hard-working, taxpaying, honest 
American men and women who have and will readily fight for this 
country for their lives and the freedom this country stands 
for? I think not.
    This legislation is supported by special interests, animal 
rights groups with some ties to domestic terrorism. To 
paraphrase the IFCNR report from 2002, ``An attempt through the 
legislative process to outlaw gamefowl activities is no 
different in motivation or effect than legislation that 
legalizes discrimination, racism and the violation of human 
rights. No matter the intent, no matter the basis, there is no 
justification. This legislation is built on distorted, 
deliberate, baseless and untrue attempts to portray a portion 
of America's diverse culture as deviant and deserving of legal 
banishment. Nothing could be further from the truth or more 
dangerous to our society.''
    The gamefowl industry, the United Gamefowl Breeders 
Association, and the millions of Americans who believe we live 
in the greatest country on earth respectfully, honestly and 
sincerely request that you not give in to animal rights 
extremists, that you not take way another freedom, that you 
vote to support the overwhelming majority of our citizens for 
the aforementioned reasons and oppose H.R. 137.
    Thank you, gentlemen, for the opportunity to share this 
information.
    [The prepared statement of Mr. Leber follows:]
                   Prepared Statement of Jerry Leber
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Leber.
    We will now have questions, and I will defer and yield to 
the gentleman from Chesapeake, the Ranking Member, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Shelly, thank you for being here and for your 
testimony. And I wonder if you could tell us if the funding 
problems that you have experienced in the Navajo Nation are 
representative, in your opinion, of what we see in Native 
American communities in general across the country.
    Mr. Shelly. Congressman, the question that you ask--direct 
funding would be a really good thing to the Navajo Nation, 
because we can use that fund right away and directly provide 
the service that the funding is used for. And I would say that 
would be the best way.
    Mr. Forbes. And how would you use some of that funding for 
health care, for example? What would your plans be for that?
    Mr. Shelly. For the health care part of it, we would 
probably do a lot of education and try to work with the health 
care facility to implement some of those preventions of the 
drug that we are talking about, and the fund would be used in 
that area.
    I do have the director of the health division here that can 
help with some of the technical question that is coming up. If 
it is necessary, I will go to that. Thank you, sir.
    Mr. Forbes. Thank you.
    Mr. Sabin, can you tell us, on the spoofing, what is the 
technology that they use to do this? How do they acquire that 
technology? Do they have to buy it? Do they create it? Do we 
need to do anything to regulate the technology that they are 
being able to get access to for----
    Mr. Sabin. The increased prevalence and the increased and 
rapid technological developments in our society have allowed it 
to be something that can be done by an individual in a home 
with readily purchased materials. Voice-over-Internet-protocols 
allow it to be much more prevalent and widespread.
    So I don't profess to understand all the nuances of the 
technology, but the concern that law enforcement officials from 
the investigatory authorities--are saying that doesn't need to 
be the grand corporation. It could be done on the Internet. It 
can be done by an individual. It could done by a group.
    And so by that rapid development of technology for purposes 
that can facilitate other crimes through obtaining of financial 
information, Social Security data and the like, it really is 
something that we appreciate Congress' sort proactive ability 
to be ahead of what could be much more harmful developments 
down the road.
    Mr. Forbes. And there is nothing, as I understand, that an 
individual can really do to stop the spoofing from his own 
number, is that----
    Mr. Sabin. That is correct.
    Mr. Forbes. Thank you.
    And, Mr. Pacelle, I was interested in your comments on the 
transport of fowl and the avian flu situation. And have you all 
done any analysis on the potential economic devastation that 
could come from the avian flu and that----
    Mr. Pacelle. Well, many credible authorities, with many 
more experts than we have, have said, of course, that a single 
bird infects our poultry flocks and then gets into communities 
across the country, I mean, it is cataclysmic.
    With the Exotic Newcastle disease which is an outbreak that 
is confined to birds that are essentially a dead-end host, it 
was $200 million that the Federal Government reimbursed poultry 
producers for in that State.
    So beyond that, I mean, the effect on the industry was much 
larger. The National Chicken Council, which is the major 
poultry producing groups, endorsed this legislation last 
Congress.
    Mr. Forbes. And, Mr. Leber, it was a little bit of a 
stretch for me to make the connection between testing animals, 
racism and, you know, the legislation that is up here.
    But given Mr. Pacelle's testimony on the spread of avian 
diseases, do you think that reducing the risk of disease would 
actually work to save the gamefowl industry money as opposed to 
costing it money based on the economic costs that you were 
looking at?
    Mr. Leber. My understanding in talking with departments of 
agriculture throughout the country and/or those involved in the 
national poultry improvement plan state that the gamefowl 
industry and gamefowl are by far the healthiest birds in our 
country. And when they personally go to inspect, check for, 
diseases they find them by far the healthiest birds in our 
country.
    When they are traveled, they are always traveled in 
enclosed containers inside, back of whatever vehicle. They are 
not taken down the road in open-air containers with feathers, 
feces, saliva and other things being spread throughout the 
environment, like the poultry industry does as a whole.
    So they feel, by far, we are the safest poultry producers 
in the country, the gamefowl breeders.
    Mr. Forbes. Mr. Pacelle's testimony was that he had seen 
even gang activity involved in that.
    I wouldn't think--Mr. Pacelle, do you have a response that 
you just want to----
    Mr. Pacelle. Yes, thank you very much.
    I mean, let's be clear. It was in 1976 that the Congress 
passed this Federal statute, section 26 of the Animal Welfare 
Act, that criminalized most forms of interstate transport of 
animals for fighting purposes.
    And on the farm bill in 2002, that loophole in the law was 
closed to ban any interstate or foreign commerce in fighting 
birds. So I am not sure what Mr. Leber is speaking about in 
terms of them packing the animals carefully when they transport 
them.
    I mean, I guess he is conceding that the industry widely 
transports animals illegally under Federal law, which is what 
we see all the time. All you need to do is look at these cock 
fighting magazines.
    There are 3 monthly cock fighting magazines. This one is 
called the Gamecock. This is The Feathered Warrior. They have 
advertisements throughout the book on sale of cock fighting 
birds, the sale of the knives and the implements. And these are 
aboveground magazines--about 20,000 total subscribers to these 
magazines.
    Mr. Forbes. Gentlemen, thank you all for your testimony.
    My time is out, Mr. Chairman.
    Mr. Scott. The gentleman's time has expired.
    The gentleman from Massachusetts, Mr. Delahunt?
    Mr. Delahunt. Yes, I thank the Chairman.
    Mr. Pacelle, is the Humane Society on a terrorist list?
    Mr. Pacelle. No, sir, we are absolutely not. We have long 
opposed any illegal activities to advance----
    Mr. Delahunt. Well, let me ask you something really 
directly. I mean, do you advocate human assassination?
    Mr. Pacelle. No. We are very outspoken about any illegal 
conduct done in the name of animal protection or for any other 
purpose. It undercuts the core values of the society, which are 
based on compassion and respect.
    Mr. Delahunt. Well, Mr. Sabin, you are in charge of the 
criminal division in the Department of Justice. Has the FBI 
made a statement relative to these extremist animal rights 
groups being the most significant domestic threat?
    Mr. Sabin. Actually, I am conversant in that issue, in a 
prior life dealing with national security as head of the 
counterterrorism section, and I did testify, ironically, at 
that hearing with Mr. Lewis from the FBI.
    So while I am not here to talk about that today, I can 
answer your question----
    Mr. Delahunt. Feel free, though. Go right ahead.
    Mr. Sabin.--to say that there was an individual at that 
hearing that had a lively and robust interaction with Senator 
Lautenberg relating to targeting individuals that were involved 
in harming of animals.
    So there was, under oath, on the record, an individual that 
made those statements. It was not in any way related to the 
group that Mr. Pacelle--if that is how it is----
    Mr. Delahunt. Okay. I think it is important to put that on.
    Mr. Leber, you are not suggesting that the Humane Society 
is a domestic terrorist organization.
    Mr. Leber. Sir, I was referring to the congressional 
testimony of Mr. John E. Lewis, and this is on the Federal 
Bureau of Investigation Web page, who simply cites that animal 
domestic terrorism--and he quotes specifically Animal 
Liberation Front, Earth Liberation Front and others--as the 
number-one terrorism threat in our country. And I just----
    Mr. Sabin. That is an accurate statement, that Mr. Lewis 
said that both ALF and ELF are of serious concern to law 
enforcement, in terms of domestic. We are not talking about 
international terrorism----
    Mr. Delahunt. Okay.
    Mr. Sabin.--was of significant concern.
    Mr. Delahunt. They have upstaged Al Qaida and other 
organizations?
    Mr. Sabin. No, sir. I am not suggesting that. I am not 
suggesting that in any way. I am just saying that Mr. Lewis----
    Mr. Delahunt. Okay. I just kind of want to be really clear 
about it. I mean----
    Mr. Sabin. Right. There are militia groups. There is the 
concern over Mr. McVeigh and the lone-wolf type of activity.
    Mr. Delahunt. Okay.
    Mr. Sabin. Again, I want to stay in lane here today. I am 
not trying to get into----
    Mr. Delahunt. Well, welcome to, you know, the fast lane.
    Mr. Sabin. I am happy to chat about that topic.
    Mr. Delahunt. Right.
    Mr. Pacelle. You know, I don't believe anyone has ever been 
harmed by a self-proclaimed animal activist. That said, I am 
the first to condemn any sort of activity in that regard.
    Mr. Delahunt. Right.
    Go ahead, Mr. Leber.
    Mr. Leber. I believe the record will reflect that the HSUS 
funds the ALF Internet Web site and/or their use of the 
Internet.
    Mr. Delahunt. Mr. Pacelle?
    Mr. Pacelle. That is completely a false allegation. We 
don't even know what----
    Mr. Delahunt. Okay. Well, that is on the record.
    Mr. Leber, I mean, when you make those kind of statements, 
and you infer or implicate that there is a large conspiracy 
among people who care about animals as being, you know, a 
domestic threat to the nation, you start to lose me in terms of 
the credibility of your argument.
    I mean, I am capable of making a distinction between the 
gamefowl industry and cock fighting. You know, and you talk 
about losing jobs. I would like to outsource cock fighting to 
some other country.
    There seems to be, you know, two States left--is that 
accurate? There seems to be two States left. So 48 State 
governments have expressed their aversion to cock fighting.
    Mr. Pacelle?
    Mr. Pacelle. I mean, I don't want this to become a back-
and-forth between me and Mr. Leber----
    Mr. Delahunt. Feel free. Fight back.
    Mr. Pacelle.--but the United Gamefowl Breeders Association 
is a group of cock fighters. It is just a cock fighting group. 
It doesn't exist----
    Mr. Delahunt. Is that true, Mr. Leber?
    Mr. Leber. Sir, we have members that show in poultry 
associations. We have 4-H students----
    Mr. Delahunt. Do you engage in cock fighting, Mr. Leber?
    Mr. Leber. No, sir.
    Mr. Delahunt. You do not.
    Mr. Leber. No, sir.
    Mr. Delahunt. You personally are not involved----
    Mr. Leber. No, sir.
    Mr. Delahunt.--in cock fighting, sponsoring cock fighting 
or associated in any way with cock fighting.
    Mr. Leber. I do raise gamefowl, sir, and I sell them for 
breeding and show purposes, but I do not----
    Mr. Delahunt. Okay.
    Mr. Chairman, whatever time I may have left I would like to 
yield to my friend from Oregon----
    Mr. Scott. The gentleman's time has just about expired. But 
I would ask unanimous consent that the gentleman from Oregon be 
allowed to participate if yielded time by another Member.
    Without objection, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much.
    I have had a lot of fights with Mr. Pacelle in the HSUSA, 
and I will start out by stipulating that I do not consider your 
organization, sir, to be a terrorist organization in any way, 
shape or form. I think some of the things that you advocate are 
misguided, so we will get into that now.
    We all know that every U.S. Attorney's Office and other 
prosecutor's office operates under a budget. And the U.S. 
attorney or the district attorney has got to make a 
determination on where the budget can be most effectively used.
    By increasing the penalty for interstate shipment of 
animals for use in fighting from a misdemeanor to a felony--the 
Constitution requires an indictment by a grand jury in the case 
of a felony charge, and it also allows the defendant, if 
indigent, to get a public defender at taxpayers' expense.
    Neither of those are required if someone is charged with a 
misdemeanor. Given that, why do you think there will be more 
effective enforcement if your bill is passed that increases the 
penalty to a felony, since it takes an awful lot more U.S. 
attorneys' time to seek and obtain an indictment and the chance 
with a public defender that the defendant will have a jury 
trial goes way up?
    Mr. Pacelle. Well, thank you, Congressman Sensenbrenner, 
and I am sorry we do disagree on this issue and some others. It 
was regrettable for us to get into a polarized situation with 
you last Congress over this issue.
    Mr. Sensenbrenner. Well, you know, I would like to thank 
you for spending all that money in my district, just for the 
record.
    Mr. Pacelle. You are welcome.
    Mr. Sensenbrenner. I got more votes than any other 
congressman in the country who is elected by district.
    So, answer the question.
    Mr. Pacelle. Yes. Well, I will be happy to answer the 
question. And thank you for inviting us into your district 
there.
    We have talked to numerous U.S. attorneys, and they have 
said they are reluctant to pursue cases with a small penalty. 
These cases do involve some investigative work. It involves 
lots of individuals. They have said, you know, we want the 
option.
    You know, this is not mandating that U.S. attorneys take 
cases. They have the same discretion as they do with any other 
felony-level penalty or any other crime. It is up to them, as 
the U.S. attorneys in charge of their area, to make judgments 
about how they allocate their resources.
    What I can say is that we--that is the case with every law 
enforcement officer at the State level, at the local level, and 
we have seen a trend in this country toward more felony-level 
penalties because more and more law enforcement officials 
recognize this is a serious crime.
    They recognize that cruelty is severe. They recognize that 
public corruption is a major problem. They recognize that 
narcotics traffic is a problem. All of the other social ills 
associated with organized animal fighting--this is a major 
underground industry.
    You have an organization here that is operating as an 
organized criminal association abetting these activities all 
over the country.
    Mr. Sensenbrenner. Well, animal fighting is illegal in 48 
States, and from what Mr. Scott has said, it is about to be 
illegal in 49 States.
    Wouldn't the more effective law enforcement be to have 
those who are engaged in animal fighting be prosecuted by the 
State rather than diverting the efforts of either the FBI or 
the U.S. Department of Agriculture into putting together cases 
with felony raps?
    Mr. Pacelle. Mr. Sensenbrenner, we work with State law 
enforcement officials, local and State. We train those law 
enforcement officials on investigating animal fighting crimes. 
And what we have seen is the nature of these crimes is 
interstate, international.
    You know, the State of Virginia cannot possibly look at a 
national network of dog fighting operators and really make an 
effective case.
    But you can have a U.S. attorney, in cooperation with other 
U.S. attorneys, crack down on a seven- or eight-State network 
of organized animal fighters who are trafficking in narcotics, 
bring children to these fights, $1.8 million in gambling 
receipts.
    Mr. Sensenbrenner. Isn't trafficking in narcotics a Federal 
felony even if you don't cross a State line?
    Mr. Pacelle. Yes.
    Mr. Sensenbrenner. Okay. Don't prosecutors have enough 
tools to get at people who are trafficking in narcotics? You 
know, isn't animal health something that the USDA vigorously 
investigates? And shouldn't they be investigating avian flu and 
mad cow disease rather than----
    Mr. Pacelle. This is the way to get----
    Mr. Sensenbrenner.--cracking down----
    Mr. Pacelle. This is the way to get at avian flu, is to 
crack down on these operations. What we have seen is when you 
do have felony-level penalties that cock fighters receive--
there was just a guy quoted in the newspaper in New Mexico, 
which is now moving to ban cock fighting--he was a State 
legislator in Washington state, and he moved to New Mexico to 
engage in cock fights.
    You are seeing a migration of cock fighters and dog 
fighters to States with lesser penalties.
    Mr. Sensenbrenner. Well, if New Mexico is about ready to 
make it illegal, then we are 50 for 50.
    My time has expired. Thank you.
    Mr. Scott. The gentleman from New York, Mr. Nadler?
    Mr. Nadler. Thank you.
    Mr. Leber, you testified a few moments ago that you do not 
engage in cock fighting, correct?
    Mr. Leber. Yes.
    Mr. Nadler. So it is not true that you enter cock fighting 
derbies under the name Windbriar Entry?
    Mr. Leber. In years past, that has happened, sir, but no, 
not since the law has changed.
    Mr. Nadler. And when was that?
    Mr. Leber. I forget the exact date, sir.
    Mr. Nadler. Roughly?
    Mr. Leber. Four years or 5 years ago.
    Mr. Nadler. So you used to be a cock fighter, but not in 
the last 4 years or 5 years.
    Mr. Leber. Or whenever that law became law.
    Mr. Nadler. Okay, since that law was passed. Okay.
    Now, there is a newspaper called The Independent which had 
in January 2005 an article called ``Cock Fighting May Be on its 
Last Legs''--it is a major paper in Great Britain--which reads 
as follows, or part of the--says Jerry Leber, a retired primary 
school headmaster, said the actual fight was only a tiny part 
of the attraction of raising and fighting roosters. Birds were 
raised and trained for up to a year before they were ready. 
``It is a challenge for me to do it to the best of my 
ability,'' he said. ``When I go into the pit with my rooster 
and put it down and hear people say 'wow,' well, that makes me 
feel proud.''
    Is that a correct quote?
    Mr. Leber. Not to my knowledge, sir.
    Mr. Nadler. Okay. So this is entirely incorrect, this----
    Mr. Leber. I don't recall that conversation at all.
    Mr. Nadler. Okay, thank you.
    I will yield the balance of my time to the gentleman from 
Oregon.
    Mr. Blumenauer. Thank you. I appreciate your courtesy, Mr. 
Nadler, and for the Committee allowing me to be here to observe 
and participate in this hearing.
    This is an issue I have been working with on the last 5 
years, and I will reinforce what Mr. Pacelle said. This is a 
problem of not having a meaningful penalty. This is already 
illegal in 48 States. Dog fighting is illegal in every State.
    But the U.S. attorneys are not going to act aggressively 
for issues that are misdemeanors. And since I started this, I 
have been ashamed that Congress has caved in to interests, to 
special interests, and been unwilling to have meaningful 
penalties for this.
    We tried it in the last farm bill and, frankly, it was an 
unfortunate circumstance as far as I am concerned.
    This goes on everywhere. I mean, I would like to think that 
my State is a relatively enlightened State, and I know that our 
Humane Society is filled with dedicated men and women and 
children, volunteers who deeply care about animal welfare--
nothing to do with terrorism, which I find just sort of a 
bizarre comment, to try and connect them.
    But we found recently in Oregon, they found a cock fighter, 
43 live chickens, the equipment, the metal spurs and gaffs, 
$10,000 in cash, cocaine, meth. This is the circle that comes 
up time and time again. You will find it in virtually every one 
of your States. We had a professional athlete involved with dog 
fighting in our community.
    It is time for us to step up and give the tools necessary 
to stop this barbaric practice. Every time the voters get a 
chance, to my knowledge, they have resoundingly voted to end 
this practice. And I think Congress ought to be a full partner 
by at least having a meaningful penalty.
    I deeply appreciate, Mr. Chairman, your having this 
hearing. We had over 300 co-sponsors last session and could not 
somehow get it to the floor. I am hopeful this session, where 
we have about that number already, that with your leadership, 
your concern, we can make an important step not just for animal 
welfare but dealing with avian flu, these vectors, dealing with 
drugs, criminal behavior.
    It will be an important tool for law enforcement as well as 
signaling that we are joining the rest of civilized society. 
Thank you very much.
    Mr. Scott. Thank you. Does the gentleman yield back? The 
gentleman yields back.
    Mr. Coble from North Carolina?
    Mr. Coble. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    Mr. Pacelle, I am concerned about the terrorizing of 
researchers, et cetera. You did assure Mr. Delahunt, did you 
not, that no one from the Humane Society is in any way 
participating in these illegal activities?
    Mr. Pacelle. Absolutely. We have a policy statement 
approved by our board of directors to that effect. The chairman 
of our board is a neurologist at the Mayo Clinic. We have a 
tremendously distinguished board of directors. We have 10 
million supports of the organization. We are as mainstream as 
you get in terms of----
    Mr. Coble. I want to be sure I heard you correctly.
    In fact, we had an individual who assisted last year at one 
of our hearings, Mr. Chairman, who subsequently became a 
target--I am not suggesting from the Humane Society----
    Mr. Pacelle. Of course.
    Mr. Coble.--but nonetheless became a target.
    Mr. Leber, let me put this question--let me change gears on 
you. Could any provision of H.R. 137 be used to limit or impede 
hunting, in your opinion?
    Mr. Leber. Sir, it is a tough question to answer. I don't 
know that I have the understanding to be able to give a quality 
answer to that.
    My thinking would be that there is a list of animal 
activities that the HSUS has as a pecking order or a target, 
and everything from what we have discussed here today, sir, 
until the point of it being illegal to own a dog or cat or any 
family pet.
    And I think those are just a list of priorities that 
eventually will be getting to hunting, fishing, rodeoing, 
circusing and all those other activities I think are----
    Mr. Coble. Well, what prompted my question, Mr. Chairman 
and Mr. Ranking Member, it seemed like I had heard somewhere, 
and I can't recall from whom, who expressed concern about that 
it may impede hunting.
    That is why I put the question to you.
    Mr. Pacelle. May I address that?
    Mr. Coble. Let me talk to Mr. Shelly. Mr. Shelly has been 
put on the backburner here. Let me bring him front and center 
again.
    Mr. Shelly, is the meth being produced on tribal lands, or 
is it being brought in by drug dealers, or both?
    Mr. Shelly. It is being produced on tribal land and also 
being brought in. So I would say both.
    Mr. Coble. And what have the tribes done to attempt to 
eliminate the supply of meth?
    Mr. Shelly. That is why we are asking for a fund to deal 
with that. We are doing the best we can do interrupt the 
trafficking and also the production of our people doing it 
within the nation. And we are doing everything we can on that. 
We need help.
    Mr. Coble. I thank you, sir.
    Mr. Pacelle, you wanted to be heard?
    Mr. Pacelle. Yes. Thank you, Mr. Coble, very much.
    Mr. Coble. And did you want to be heard again also, Mr. 
Leber?
    Mr. Leber. Yes, sir. Thank you.
    Mr. Coble. All right.
    Go ahead, Mr. Pacelle. You want to beat that red light 
before it comes on.
    Mr. Pacelle. Yes. H.R. 137, the bill before you, has a 
provision, it is section 49, subsection (g)(1), and it defines 
the term, ``animal fighting venture.'' And it basically says it 
means any event which involves a fight between at least two 
animals and is conducted for the purposes of sport, wagering or 
entertainment, except that the term ``animal fighting venture'' 
shall not be deemed to include any activity the primary purpose 
of which involves the use of one or more animals in hunting and 
other animal or animals such as waterfowl, bird, raccoon or fox 
hunting.
    So hunting is specifically exempted, even if you are using 
dogs which are pursuing other quarry.
    Mr. Coble. Thank you, sir.
    Mr. Leber?
    Mr. Leber. Yes, sir. It seems as though the point has been 
made that the gamefowl industry is the drug trafficking 
association of the country, and I think that is far from true.
    I think drug trafficking is at all levels of our society, 
from the top to the bottom and everywhere in between. And we 
are just simply a segment of society, and why anyone would 
think there would be no drug activity involved in the gamefowl 
industry would simply be saying there is no drug activity 
involved in any other segment of society, whatever that segment 
may be.
    But we feel highly that it is far less so in the gamefowl 
breeders than many other segments of society.
    Mr. Coble. I thank you.
    Thank you, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Scott. Thank you.
    The gentleman from Georgia, Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Leber, in your written statement, you have written that 
the breeding and raising of gamefowl has held families 
together, created a sense of unity, trust and love for life due 
to the simple presence and aura for which the gamecock is 
noted.
    Now, gamecocks--and you represent the industry in your 
capacity as president of the United Gamefowl Breeders 
Association. Can you tell us exactly what a gamefowl is?
    Mr. Leber. To my understanding, sir, the gamefowl 
originated from----
    Mr. Johnson. Well, I mean, what is it, instead of where it 
came from? What is a gamefowl?
    Mr. Leber. It is a rooster, a hen or a little chicken of a 
breed of poultry.
    Mr. Johnson. And what kind of games does a gamefowl play 
other than cock fighting?
    Mr. Leber. They are shown in poultry shows. They are used 
for food. The feathers are used for ties for fly fishing, and--
off the top of my head, sir.
    Mr. Johnson. But the principal purpose for a gamefowl is to 
produce fighting cocks, if you will, isn't that correct?
    Mr. Leber. That may be the majority use, but----
    Mr. Johnson. In other words, most people who are members of 
your association engage in the game of cock fighting, isn't 
that correct?
    Mr. Leber. I could not testify to that, sir.
    Mr. Johnson. But you know it to be a fact that there is 
significant amounts of fowl fighting, cock fighting, that takes 
place throughout the United States of America, isn't that 
correct?
    Mr. Leber. I think that is a matter of record, sir, yes.
    Mr. Johnson. And this bill would seek to prohibit 
sponsoring or exhibiting an animal in an animal fighting 
venture. So in other words, it would ban cock fighting on a 
national level, would it not?
    Mr. Leber. I think so, sir.
    Mr. Johnson. And you are opposed to that, aren't you?
    Mr. Leber. I am opposed to the Federal Government being 
involved in issues where States should have the authority to 
make their own decisions, sir.
    Mr. Johnson. And in the 48 States where cock fighting has 
been declared illegal, you are opposed to those State rules as 
well, are you not?
    Mr. Leber. I don't think they are in the best interest of 
our country.
    Mr. Johnson. And so you are here to protect the cock 
fighting industry, isn't that correct?
    Mr. Leber. No, sir. I represent the breeders of this 
country who raise and show in the agriculture business of 
raising gamefowl.
    Mr. Johnson. Well, I suppose that if cock fighting were 
banned, then there would be a rapid decline in the number of 
game breeders operating in this country. Is that true or is 
that false?
    Mr. Leber. I would not know, sir.
    Mr. Johnson. Would you speculate that it would be?
    Mr. Leber. I would suspect that if the demand of any 
product that is produced decreases, the likelihood of less 
production would follow.
    Mr. Johnson. Do you believe that it is okay for mankind to 
subject animals to cruelty?
    Mr. Leber. No, sir.
    Mr. Johnson. So in other words, the Federal Government does 
have an interest in protecting innocent animals from cruelty 
levied upon them by human beings.
    Mr. Leber. I would think if the Federal Government so chose 
to do that, they would.
    Mr. Johnson. Well, I mean, is that the morally correct 
thing that we should be doing up here?
    Mr. Leber. Sir, I don't know that I can answer for anyone 
else's morals.
    Mr. Johnson. Well, your morals would cause you to protect 
those who would engage in animal cruelty with respect to cock 
fighting.
    Mr. Leber. Sir, I came to testify on the transportation 
issues, not on the cock fighting issues.
    Mr. Johnson. But in the process, you impugn the character 
of an organization, the Human Society of the United States. And 
I find that objectionable. It seems like you equated them with 
a terrorist group.
    Is that what you wanted to tell the American people and 
tell this panel, is that the Humane Society of the United 
States is a terrorist group?
    Mr. Leber. I quoted Mr. Lewis from the FBI, who said----
    Mr. Johnson. Well, no, no, no, no. I am saying, yes or no, 
do you equate the Humane Society of the United States as a 
terrorist group?
    Mr. Leber. Do I personally?
    Mr. Johnson. Yes.
    Mr. Leber. Yes, sir.
    Mr. Johnson. You do.
    Mr. Leber. Yes, sir.
    Mr. Johnson. All right.
    Well, I have no further questions for this particular 
witness.
    But let me ask you, Mr. Pacelle, when is the last time your 
organization has engaged in terrorism in this country, sir?
    Mr. Pacelle. Never. We were founded in 1954 by some 
incredibly compassionate people who wanted to stop malicious 
cruelty toward animals. And we have built an organization that 
has 10 million supporters in the United States, and our entire 
mission is based on mercy and compassion.
    So terrorism is a countervailing force, as far as we are 
concerned.
    Mr. Johnson. Okay, thank you.
    Mr. Scott. The gentleman's time has expired.
    We have been joined by Mr. Chabot from Ohio, Ms. Jackson 
Lee from Texas, and Mr. Gohmert from Texas. And we will call on 
Mr. Chabot at this time.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    Mr. Pacelle, let me ask a couple of questions, if I could. 
I wanted to clarify some of the aspects of H.R. 137, the animal 
fighting bill that we are discussing; in particular, 
subsections (c) and (d) of section 49, which address the use of 
the postal service or other interstate instrumentalities for 
promoting animal fighting ventures.
    It is my understanding that subsection (c) prohibits the 
use of Web sites and magazines to advertise the sale of 
fighting animals and promote animal fighting venture. Is that 
correct? And does subsection (d) limit subsection (c) as it 
applies to cock fighting in States where it is legal?
    Mr. Pacelle. Thank you, Congressman Chabot.
    Yes, subsection (c) covers the animal fighting magazines 
because these publications, which I held up earlier, are 
commercial speech and also clearly promote animal fighting.
    They advertise fighting animals, weapons for sale in 
interstate commerce. For example, over the last 12 months there 
have been 1,600 pages' worth of advertisements for illegal 
interstate commercial transactions in the main two cock 
fighting magazines, Feathered Warrior and The Gamecock.
    Regarding subsection (d), subsection (d) of section 49 is 
copied from the current Animal Welfare Act animal fighting 
provisions, which is 7 USC--I won't give you all the--it is in 
my testimony. The specific code is cited.
    Subsection (d) still acts as a limitation upon subsection 
(c) but, as before, only if the effect of that promotion is 
limited to cock fights in the two States where cock fighting is 
still legal.
    So as a practical matter, subsection (d) does not limit 
enforcement of (c) against the cock fighting magazines and Web 
site advertisements, because these materials promote animal 
fights in every State.
    They are sent to or read by buyers in many States who buy 
the fighting animals and implements and then use them in animal 
fights in States where cock fighting is illegal.
    So the basic gist of all that, Congressman, is that these 
magazines sell fighting birds, and they sell the fighting 
implements. And this is commercial speech, not free speech, not 
saying, ``Well, cock fighting is okay.'' They are promoting 
illegal activity, violating the Federal law.
    Mr. Chabot. Thank you. And that is what I wanted to get 
into in my second question here. Are the first amendment 
concerns with respect to limiting commercial speech, as section 
49 does, viable?
    And does this bill prohibit all commercial speech or only 
commercial speech that seeks to cloak an otherwise illegal act 
into the first amendment? Is this consistent with Supreme Court 
precedent?
    Mr. Pacelle. Yes. I think the Supreme Court has been clear 
on the issue. There is no first amendment protection for 
commercial speech where the underlying commercial transaction 
is lawfully prohibited, as is the case here.
    And subsection (c) is clearly constitutional. It is 
narrowly tailored with this in mind. The first amendment is 
built in right there. It only prohibits commercial speech, like 
the cock fighting magazines with all of their advertisements 
for contraband.
    The magazines are not political speech. They are basically 
just catalogs with hundreds of advertisements per issue for 
illegal transactions.
    The sellers are just soliciting the buyers to commit 
criminal acts, and they can't cloak it under the first 
amendment just by throwing a little bit of non-commercial 
speech in there either. And the Supreme Court has been quite 
clear on that.
    Mr. Chabot. Thank you. And finally, it is also my 
understanding that the clerical amendment made under the bill 
which repeals the criminal penalty in the Animal Welfare Act 
leaves intact the rest of the statute, which deals with animal 
fighting. Is that correct?
    Mr. Pacelle. Yes, that is correct.
    Mr. Chabot. Okay. Thank you very much.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Scott. Thank you, Mr. Chabot.
    Mr. Gohmert?
    Oh, excuse me. Ms. Jackson Lee? I am sorry.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And thank the witnesses, and I want to thank Mr. Blumenauer 
for his leadership on the cock fighting legislation, 
particularly since we in Texas have a disproportionate impact 
or are impacted by the utilization of these animals.
    And so I will pose questions on all three of the bills, but 
I do wish to start with Mr. Leber on something I think we would 
want to collectively raise our voices about.
    And that is as I have been in the area of such activity, I 
know that there is a fight to the death in many instances. And 
therefore, there is bloodletting. There is the loss of an 
animal.
    And certainly for those of us who believe in the concept of 
the value of entities that cannot protect themselves--and we 
all have our different views--that that in and of itself is a 
tragedy.
    But my concern would be the potential for the spread of 
disease. Certainly, in light of the last couple of days, we saw 
the announcement in England of the massive strain of avian flu.
    And so my question is in the course of the industry that 
you work with, is there any protections and concerns--concerns 
first, and protections that you put in place, that would 
convince me that there is a protection against a public health 
risk with cock fighting?
    Mr. Leber. I think my answer to that would be that working 
with the Department for Agriculture and the national poultry 
improvement plans to continually monitor our flocks and to make 
sure they are completely disease free is first and foremost in 
the Gamefowl Breeders Association's goals and objectives.
    And that is our entire focus with regard to disease control 
and prevention. We need to maintain healthy birds in our 
society, and those viruses do not discriminate. They will 
attack any poultry specimen.
    And we just try to make sure, with working through the 
universities and Department of Agricultures, that we maintain 
the healthiest flocks in the country.
    Ms. Jackson Lee. But you don't know as to whether when they 
are engaging in cock fighting and letting of blood--you don't 
have any particular secondary industry protections that would 
protect from the spread of disease.
    And of course, I use avian flu, but there may be many other 
aspects of disease that could be engaged with the letting of 
blood.
    Mr. Leber. No, ma'am, I do not.
    Ms. Jackson Lee. All right.
    Let me ask Mr. Pacelle of the Humane Society that very 
question. What is to prevent the possible spread of disease if 
there are seemingly no real strictures and restrictions and 
guidelines for such a violent episode?
    Mr. Pacelle. Well, it is not a regulated industry because 
it is a criminal industry, so you don't have USDA considering 
gamefowl or fighting dogs--I mean, it is the birds that we are 
talking about here, but the entire animal fighting industry is 
a criminal enterprise, for the most part. Even in New Mexico 
and Louisiana, the operations are not inspected.
    I will say that it is----
    Ms. Jackson Lee. So we don't know what may be spread or 
what disease may----
    Mr. Pacelle. No, we don't. But at these derbies where 
people come from all over the country to fight their birds, and 
they mix the birds, some of the birds die and are thrown in the 
trash. Others survive and are brought back to their community.
    So they may be traveling seven States, eight States away, 
and if they do get an infection at one of these derbies, they 
can spread it across the country in a moment. And what you do 
see is the birds mixing a great deal, and you do see the 
possibility of animal-to-human transmission of avian flu.
    We saw it in Southeast Asia, where sometimes the birds go 
down because they have been struck with a gaff in the lung, and 
their lung fills with blood, and the cock fighters try to rouse 
the bird to fight longer because they have got bets on the 
bird. So sometimes----
    Ms. Jackson Lee. If you could wrap up so I can get Mr. 
Shelly a question or two----
    Mr. Pacelle. Yes. Some of the cock fighters do put their 
mouth over the bird's mouth to suck the blood out of the lungs. 
There is no better pathway for transmission of the disease from 
animal to human than that.
    Ms. Jackson Lee. Let me just say you have convinced me.
    Mr. Shelly, I am very pleased that we are moving toward 
helping with respect to methamphetamine, but tell me the impact 
on youth, the Native American youth, and the importance of this 
legislation with this epidemic of methamphetamine.
    Mr. Shelly. Okay. Thank you for the question.
    Ms. Jackson Lee. Thank you, Mr. Shelly.
    Mr. Shelly. Thank you. Youth is really picking this up, and 
I did mention it in my testimony here, that youth is getting 
involved in this, and the young people--and percentage wise, 
and they are picking it up. It is available out there, and they 
don't know much about it. This is where the education 
prevention--that we are asking for to do that.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    And, Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    There are some of us that find cock fighting as a vile, 
despicable, terrible misuse of animal lives. Despite its being 
so despicable, there are some things that are reserved to the 
States when it comes to criminal laws.
    And one of the things that I was amazed about back during 
the days I was a trial judge on the district bench handling 
felonies was to see people running for U.S. Congress and 
promising people we are going to get in there and we are going 
to do something about all the violent crime, the rapes, the 
burglaries.
    And at one point I laughed to my wife and remarked that is 
ridiculous, that is not their job, that is not in accordance 
with the Constitution, because some things are reserved to the 
States, and that is everything that is not specifically 
enumerated.
    And so despite my personal feelings about cock fighting, I 
have reservations about whether or not this may be an invasion 
of States' rights, ability or right, to either legislate or 
not.
    And since I have been in Congress, I have noticed one of 
the things that all too frequently happens is groups that would 
rather lobby one time in Washington rather than 50 times in 50 
States just say hey, it would be a whole lot easier and cheaper 
if we just go lobby Washington one time, and that way we don't 
have to go to the States.
    And I really find it at least a diminution of the 
Constitution itself. That is my concern.
    Mr. Pacelle. May I address that?
    Mr. Gohmert. Yes, that would be fine. Thank you, Mr. 
Pacelle.
    Mr. Pacelle. Thank you very much.
    You know, I am sure Mr. Leber can testify to the fact that 
we have a very robust level of activities at the State level on 
this. There are probably 10 bills at the State level----
    Mr. Gohmert. I would hope so.
    Mr. Pacelle.--to strengthen the efforts there.
    This is an industry, because you don't have that many 
people in any one State who are doing this, the nature of it is 
interstate, and there is foreign commerce. There are fighting 
derbies--a world slasher derby in the Philippines. Americans go 
over and bring birds to the Philippines. There is a trade in 
these birds that is worldwide. Even dog fighting--there is a 
pit bull trade from the United States to Eastern Europe, to 
Russia, for fights, where people are wagering thousands and 
thousands of dollars.
    We are dealing just with the interstate and foreign 
commerce issue with this legislation. If New Mexico or 
Louisiana chooses to allow animal fighting, this legislation 
does not stop them. It simply stops the movement of fighting 
birds or fighting animals into the State or the movement of 
those birds or other animals from the State to other 
jurisdictions.
    So it is just the interstate and foreign commerce nexus.
    Mr. Gohmert. Anybody else care to comment?
    Mr. Leber. Yes.
    Mr. Gohmert. Yes, Mr. Leber?
    Mr. Leber. Thank you. I find it difficult to comprehend 
that if a State allows an activity that it is illegal to go 
into that State and participate in an activity, whether it be 
horse racing, buying a lottery ticket, racing dogs, or whatever 
it may be, and yet that is what this legislation does.
    It says you cannot come into our State and do what we 
specifically allow you to do because you live from another 
State.
    Mr. Pacelle. With an animal, not----
    Mr. Gohmert. Mr. Pacelle, do you care to comment again?
    Mr. Pacelle. It is simply if you move the animal with you 
in interstate commerce and bring them, so if you are in Texas 
and want to bring animals from Texas into Louisiana to fight at 
the Sunset Game Club, you are not allowed to do that under 
Federal law.
    And that has been criminalized since 2002. We are not 
creating a new Federal crime here except for the interstate 
transport of the cock fighting implements. The core criminal 
behavior is already illegal under Federal law.
    We are just upgrading the penalties to provide a deterrent, 
because we have seen that a lot of the cock fighters and dog 
fighters will stop doing the activity if there is a Federal 
felony threat.
    Mr. Gohmert. And I am glad that you are at work on these 
issues in the States. But there is another issue that sometimes 
arises. Is this just, you know, the first foot that will be 
followed by another and another?
    I have heard some representation that perhaps the Humane 
Society of the United States is against all types of hunting, 
legal or illegal, that it all should be illegal. What is your 
personal feeling about that?
    Mr. Pacelle. Well, the Humane Society, of course, has a set 
of policy positions. They are on our Web site at 
HumaneSociety.org. We are not just an animal fighting 
organization. We advance a larger ethic about humane treatment 
of animals.
    There are a couple of hunting bills that we are interested 
in, and a couple before this Committee.
    One is to stop Internet hunting, where people--a guy in 
Texas had a fenced ranch and has exotic animals to be shot for 
a fee in a guaranteed kill arrangement, and he set up a Web 
site with a motorized rifle and a camera, and you could click 
on and shoot an animal through the Internet.
    And Tom Davis introduced that bill with Collin Peterson, 
who is one of the leaders of the Sportsmen's Caucus, to try to 
curb that practice.
    We are also very concerned about these game ranches where 
animals are shot in fenced enclosures and there is no sporting 
chance for the animal, and it basically is an open-air 
abattoir.
    So we are concerned about the most abusive practices, and I 
think that would be the general take of the Humane Society on 
the wide range of issues in terms of how humans deal with 
animals. We want to curb the worst abuses.
    And you will see our legislative agenda, which again is 
published on our Web site. Almost every issue has 80 percent of 
the American public behind it. And this one, of course, is 
right up there.
    Mr. Gohmert. Any other comment, Mr. Leber?
    Mr. Leber. Yes, sir. To quote some HSUS information, ``If 
we could shut down all sport hunting in a moment, we would''--
Mr. Wayne Pacelle, president, HSUS. ``We want to stigmatize 
hunting. We see it as the next logical target, and we believe 
it is vulnerable''--Mr. Wayne Pacelle, president, HSUS.
    Mr. Gohmert. Well, I see my time has expired. Thank you, 
Mr. Chairman.
    Mr. Scott. Thank you, Mr. Gohmert.
    And I recognize myself for 5 minutes.
    Mr. Sabin, is an indigent defendant in Federal court 
charged with a misdemeanor entitled to a lawyer?
    Mr. Sabin. I believe the answer is yes, but I would have to 
check.
    Mr. Scott. In your testimony, you suggest that we change 
the law enforcement provision in the spoofing bill from an 
affirmative defense to an exception. Why is that important?
    Mr. Sabin. It had been under H.R. 5304 an exception, the 
idea being that the Government would not have to have a 
rebuttal of or put on evidence to demonstrate that law 
enforcement should be properly allowed to pursue investigatory 
or intelligence investigations to use this technique.
    So rather than putting it as an issue in the case, you 
carve it out as an exception, and therefore it is authorized 
and appropriate for law enforcement to continue its normal 
course of activity.
    Mr. Scott. In the prima facie case, would you have to prove 
that it was not a law enforcement--as an element of proof for 
violation if it is an exception, not an affirmative defense? 
Would you have to prove that it was not for the purposes of law 
enforcement in the case in chief?
    Mr. Sabin. No, but I think that was the intent in the prior 
Congress, and I don't understand why, under 1040 subsection (c) 
you would say it is a defense to a prosecution for an offense.
    Why not allow law enforcement clearly and appropriately to 
proceed with its investigations in that fashion rather than 
injecting it as an issue to become part of the case?
    Mr. Scott. You also mentioned that where we say an actual 
person that the word ``actual'' is problematic. Could you 
explain what you mean by that?
    Mr. Sabin. Yes. I think the concern that it may not cover 
companies or the Government entity, so we----
    Mr. Scott. The word ``person'' generally includes 
corporations, but by saying actual person you think that may 
complicate that assumption?
    Mr. Sabin. Yes.
    Mr. Scott. Okay.
    Mr. Pacelle, cock fighting and animal fighting is illegal 
in just about every State. In Virginia it is illegal if there 
is wagering or if there is paid admission, which covers just 
about every situation.
    Mr. Pacelle. Right.
    Mr. Scott. Can you explain why we need Federal prosecution?
    Mr. Pacelle. Well, again, we already have a statute that 
has been on the books since 1976. It was amended in 2002 to ban 
any interstate or foreign commerce in fighting animals. It is 
simply an additional tool for local, State and Federal 
Governments to crack down on what has become a national and 
international industry.
    Animal fighting is a gateway of activity to other crimes, 
and the Federal Government has a real interest in cracking down 
not only on animal fighting but the range of other criminal 
conduct that is fostered and abetted at these animal fighting 
operations.
    Mr. Scott. Mr. Leber, what rights do people now have that 
will be denied if this bill passes?
    Mr. Leber. I think the next logical step from the Humane 
Society's perspective----
    Mr. Scott. Wait. Wait a minute. If this bill passes----
    Mr. Leber. Oh, I am sorry.
    Mr. Scott. If this bill passes, not what may be next.
    Mr. Leber. Okay.
    Mr. Scott. If this bill passes, what rights will be denied?
    Mr. Leber. I think the right would be perceived that if 
transportation across State lines occurs, it is automatically 
for fighting purposes, even though the gamefowl may be 
transported for show purposes, breeding purpose or exchange of 
brood stock, or things of that nature.
    And there is no way to distinguish or differentiate between 
a child going to a poultry show with their bird than someone 
going across State lines to exchange brood fowl.
    Mr. Scott. Goes the Government have the burden of proof 
beyond a reasonable doubt to show what the purpose was?
    Mr. Leber. Sir, I would assume so, but that is beyond my 
understanding.
    Mr. Scott. Well, let's get the prosecutor.
    I know that is not what you came here for, but----
    Mr. Sabin. What is the question? I will jump into this 
debate. I have tried to stay out of that.
    Mr. Scott. Nice try. [Laughter.]
    Under that bill, would not the Government have the burden 
of proof beyond a reasonable doubt to show the purpose of 
crossing State lines?
    Mr. Sabin. Yes. An essential element--in order to have 
jurisdiction, the Government has to, either under the commerce 
clause or other provisions, show an interstate nexus. And the 
Government bears the burden of each and every element and to 
the exclusion of every reasonable doubt.
    Mr. Scott. Mr. Leber, in your written testimony, you 
suggested the bill could generate losses totaling billions of 
dollars. How does the bill create that loss?
    Mr. Leber. I think it eliminates the gamefowl industry per 
se, and consequently, if you eliminate the industry, you 
eliminate the billions of dollars in the economy.
    Mr. Scott. What can you not--well, I guess, again, what can 
you not do--what can you do now that you couldn't do if the 
bill passed?
    Mr. Leber. Say that again, sir, please.
    Mr. Scott. What can you do now that you would not be able 
to do if the bill passed?
    Mr. Leber. I don't think there is anything different, but I 
think the presumed threat of becoming a felon, whether you are 
engaged in legal or other activities, simply reduces the 
involvement in raising gamefowl.
    Mr. Scott. Thank you.
    Mr. Shelly, just let me say that we apologize for the 
oversight in the previous legislation----
    Mr. Shelly. No, no, it has been wonderful.
    Mr. Scott.--and we are going to try to correct it as soon 
as we can. So we recognize the need for the grants and how much 
good they can do, and we will try to get that fixed as soon as 
we can.
    So I appreciate your coming to testify. Do you have a final 
comment?
    Mr. Shelly. The final comment, Mr. Chairman--thank you, 
Congressmen that are here, the Committee. I really wanted to 
address Ms. Jackson Lee, the congresswoman, about the question 
she asked about what percentage of teenagers are using it.
    And I did say we have over 300,000 Navajos, and this small 
town that I mentioned in my testimony, Tuba City, with a 
population of 9,000, and 12 percent of that Tuba City teens use 
meth, about 12 percent. And could you imagine 350,000 
population now? That is 4 years ago. That is on the rise.
    And I know the meth is a problem for the teens out there. 
It is probably in the high percentage.
    Mr. Chairman, thank you very much for allowing me to answer 
that.
    Mr. Scott. Thank you very much.
    Do any of the witnesses have any final comments?
    Mr. Leber. Yes, sir. With regard to the question I was 
posed earlier with regard to considering the Humane Society as 
an animal terrorist group, I feel like that any group that 
could kill 4 million to 5 million dogs, cats, puppies every 
year--every year--could be called nothing but for those 4 
million to 5 million animals and puppies.
    They don't have an option. They don't have a choice. The 
gas chamber or whatever method is used is absolute. And that is 
just my thinking with regard to that kind of use of animals.
    If we are humane in that regard, it looks like we would use 
the money to shelter, save and take care of those animals, as 
opposed to the other.
    Mr. Pacelle. I am afraid I have to answer that. The Humane 
Society of the United States works with local Human Societies 
across the country. We don't control every local Humane Society 
in this nation.
    These organizations strive to the greatest degree to 
provide homes for animals and to encourage adoption, to spay 
and neuter animals. And if a decision is made to euthanize, it 
is a failure of society, not these local organizations who are 
striving to do their best.
    And they do it with the most humane method. They don't put 
animals in a pit and fight for 2 hours and get enjoyment from 
the activity.
    And to call an organization a terrorist organization 
because animals in society are overpopulated and regrettably 
euthanized is an extreme and ridiculous definition of 
terrorism.
    And I presume that when cock fighting was banned in 
Oklahoma there were 2.5 million fighting birds in that State. 
They are all terrorists from the gamefowl association as well 
if they are killing those animals.
    Mr. Scott. Thank you.
    If there are no further comments and no further questions, 
I would like to thank the witnesses for their testimony today.
    Members may have additional written questions for the 
witnesses, which we will forward to you and ask that you answer 
as promptly as you can, to be made part of the record.
    And without objection, the hearing record will remain open 
for 1 week for submission of additional materials.
    And without objection, the Committee now stands adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable J. Randy Forbes, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you Chairman Scott. I would like to take this opportunity at 
our first subcommittee hearing to congratulate you on your new role as 
Chairman of the Crime, Terrorism, and Homeland Security Subcommittee. I 
value our friendship as colleagues from neighboring Virginia districts, 
and I know this friendship will allow us to work closely together to 
implement common sense, bipartisan legislation. I look forward to 
working with you on issues of importance to the American public.
    Today, the Subcommittee will markup three bills immediately 
following the legislative hearing. In the previous Congress, the Crime 
Subcommittee eventually changed its practice to hold mark ups on a 
separate day from the legislative hearing on that same measure. Such a 
policy makes sense since the purpose of the hearing is to review the 
legislation and take testimony on possible changes or improvements. I 
understand that you, Chairman Scott, intend to continue the policy 
against same day markups, and that such scheduling will be limited to 
situations where you and I agree to such a schedule or where there is 
an emergency requiring such scheduling. I want to thank you for working 
with me on this issue and I appreciate, as always, your cooperation in 
confirming this arrangement. (Mr. Scott may ask you to yield to address 
this issue).
    Last year, Congress passed the Combat Methamphetamine Epidemic Act 
of 2005 as a provision of the USA PATRIOT Act Improvement and 
Reauthorization Act. Unfortunately, Native American governments were 
unintentionally left out of two of the three grant programs implemented 
with the reauthorization: the Hot Spots Program benefitting local law 
enforcement and the Drug-Endangered Children Grant Program.
    H.R. 545, the ``Native American Meth Enforcement and Treatment Act 
of 2007,'' clarifies language regarding tribal eligibility for all 
three programs to combat the methamphetamine-associated problems within 
Native American communities. I strongly support this legislation, which 
is necessary to correct the accidental omission of Native American 
communities from participating in critical meth grant programs. H.R. 
137, the ``Animal Fighting Prohibition Enforcement Act,'' increases 
existing federal criminal penalties for illegal dogfighting and 
cockfighting. Currently, dogfighting is prohibited in all 50 states. 
Cockfighting is outlawed in most states under laws specifically 
prohibiting it or general prohibitions against animal fighting or 
animal cruelty. Under existing federal law, animal fighting is a 
misdemeanor, carrying a maximum penalty of one year incarceration. 
Although Congress in 2003 increased the criminal fines for animal 
fighting, the term of imprisonment has not been increased since its 
original enactment in 1976.
    H.R.137 creates a new animal fighting offense in title 18, and 
modifies the penalties to make it a felony offense by increasing the 
maximum penalty from one to three years imprisonment. The Act broadens 
the law to prohibit the interstate promotion of animal fighting and the 
interstate purchase, sale, delivery or transport of any animal for use 
in an animal fighting venture. I am a cosponsor of this bill, along 
with 286 of my colleagues from both sides of the aisle, and I urge 
Members to support its passage.
    H.R. 740, which we are also discussing today, addresses an 
increasingly prevalent form of fraud known as caller ID spoofing. 
Spoofing involves using fake or misleading caller ID information to 
facilitate a fraudulent telephone call to an individual in order to 
obtain their personal information. Call recipients unwittingly divulge 
their names, addresses, social security numbers or other private 
information under the mistaken belief that the caller represents a 
bank, credit card company, or even a court of law.
    The ``PHONE Act of 2007'' imposes a fine and prison term up to five 
years for those who engage in call spoofing. This legislation will help 
to deter telephone fraud, to protect consumers from harassment, and to 
increase protection for consumers and their personally identifiable 
information from identity thieves. Further, the bill provides 
additional law enforcement tools to effectively prosecute frauds 
facilitated by spoofing. The House passed similar legislation at the 
end of the last Congress and I support its favorable adoption today.
    I look forward to the testimony of our witnesses and I thank you 
Mr. Chairman for working with us on these bills and the subcommittee 
schedule.
Prepared Statement of Phil Kiko, Esquire, Senior Adviser, Office of the 
                 Honorable F. James Sensenbrenner, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
